                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-28                                    Office of Inspections                                       May 2013




                   Inspection of
      the Bureau of International Information
                     Programs




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.



                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

      Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

      Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

      Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                              Table of Contents
Key Judgments                                         1
Context                                               2
Executive Direction                                   4
   Leadership                                         4
   Mission                                            6
   Communications and Outreach                        6
   Organizational Structure                           7
Policy and Program Implementation                     9
   Partnerships                                       9
   Publications                                       9
   Video                                             10
   Speakers                                          11
   Policy                                            13
   Audience Research and Evaluation                  13
   Translations                                      15
Regional Coordination and American Spaces            17
   Office of American Spaces                         17
   Office of Regional Coordination                   19
Digital Engagement                                   20
   Social Media                                      21
   Interactive Global Web Broadcasts                 23
   Coordination with Other Bureaus                   23
Resource Management                                  25
   Financial Management                              26
   Human Resources                                   26
   Security                                          30
Management Controls                                  32
Information Technology Management                    37
List of Recommendations                              43
List of Informal Recommendations                     50
Principal Officials                                  51
Abbreviations                                        52




                                    iii
                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Judgments
   Bureau of International Information Programs (IIP) leadership failed to convey its strategic
    vision to staff members, despite formalized communications. Leadership created an
    atmosphere of secrecy, suspicion, and uncertainty.

   A 2011 reorganization of the bureau did not resolve structural problems and caused new
    organizational difficulties. Morale is low.

   With effective use of technology, IIP has made a significant contribution to the Department
    of State’s (Department) digital diplomacy outreach effort, increased the reach of its
    publications, and expanded the use of video in public diplomacy (PD) work.

   Regularizing support for American Spaces overseas has strengthened these platforms for
    engagement with foreign publics, a cornerstone of the Department’s 21st century PD effort.

   There has been limited outreach by top leadership to counterparts in the Department or at
    sister foreign affairs agencies.

   Responsibility for information technology (IT) operations is diffuse, leading to problems of
    governance and oversight.

   The Executive Office does not provide effective service. Response times to requests are
    slow, and customer service is inadequate.

   The bureau uses many contractors (43 percent of employees) but does not manage its
    contracts well. This deficiency constitutes a potential vulnerability for the Department.

   IIP’s digital outreach should focus more on PD goals rather than raw numbers of social
    media fans.

   The Office of Audience Research and Evaluation is producing little work and is not engaged
    with either the bureau or other elements of the Department.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 7, 2013, and April 5, 2013.
(b) (6)

              conducted the inspection.




                                       1
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
       IIP is one of three bureaus that falls under the authority of the Under Secretary for Public
Diplomacy and Public Affairs. The bureau has undergone extensive reorganization, including in
2006 and again in 2011.

        IIP provides products and services that support embassies’ policy-advocacy work. These
products range from videos to electronic magazines to expert speakers. The bureau supports
American Spaces, which are embassy venues where foreign audiences can learn about American
policies and society. IIP also supports digital engagement with foreign audiences, including
interactive Web chats and a social media presence. The Smith-Mundt Act prohibits domestic
dissemination of material prepared for foreign audiences and has been a factor in shaping PD
responsibilities in the Department.

        The 2004 OIG inspection report recommended that the Department designate the senior
position in IIP as an assistant secretary, given the size of the bureau and the responsibilities of
the coordinator. The Department cited a congressional cap on the number of assistant secretaries
as the reason it did not act. However, the lack of an assistant secretary rank continues to limit the
coordinator’s effectiveness and Department perceptions of the bureau.

Recommendation 1: The Office of the Deputy Secretary for Management and Resources, in
coordination with the Office of the Under Secretary for Public Diplomacy and Public Affairs,
should continue to seek legislative authority to designate the senior position in the Bureau of
International Information Programs as an assistant secretary. (Action: S/ES, in coordination with
R/PPR)

        The absence of a Departmentwide PD strategy tying resources to priorities directly
affects IIP’s work. Fundamental questions remain unresolved. What is the proper balance
between engaging young people and marginalized groups versus elites and opinion leaders?
Which programs and delivery mechanisms work best with which audiences? What proportion of
PD resources should support policy goals, and what proportion should go to providing the
context of American society and values? How much should PD products be tailored for regions
and individual countries, and how much should be directed to a global audience? What kinds of
materials should IIP translate and into which languages? Absent a Departmentwide strategy, IIP
decisions and priorities can be ad hoc, arbitrary, and lack a frame of reference to evaluate the
bureau’s effectiveness. The 2004 OIG IIP inspection report recommended that the Department
conduct a management review of PD. The Office of the Under Secretary for Public Diplomacy
and Public Affairs created an Office of Policy and Outreach but did not carry out the
management review. A strategy that ties resources to priorities is essential to resolving questions
of mission and organization for IIP in general and for the PD function in particular.

Recommendation 2: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Office of the Deputy Secretary for Management and Resources,
should conduct a management review of public diplomacy in the Department of State. (Action:
R/PPR, in coordination with S/ES)



                                       2
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Notwithstanding the numerous issues this report identifies, the bureau staff is creative,
dedicated, and fully engaged in the Department’s PD effort. IIP employs 160 Civil Service and
26 Foreign Service personnel, along with 23 information resource officers (IRO) based in
embassies. An additional 142 individuals work on contract.




                                       3
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Executive Direction
        This inspection is only the second full inspection of IIP since its 1999 integration, as part
of the U.S. Information Agency, into the Department. Many challenges the 2004 report cites
remain problematic today, including uncertainty surrounding the bureau’s mission and role.
Change continues to be essential for the bureau, with its heavy emphasis on communication
technologies. IIP must master social media and exploit mobile technology growth while
maintaining a vital presence in traditional media. It also must strike the right balance between
engaging young people and elite audiences.

        IIP staff members are cognizant of the challenges they face and generally recognized the
need for structural and programmatic change when the current coordinator arrived in summer
2010. Shortly after her arrival, the coordinator initiated a business review, led primarily by
outside consultants with whom she had worked previously, which resulted in a full-scale
reorganization of IIP. Staff involvement was limited. The coordinator’s top-down approach to
change management and daily leadership damaged morale and created a gulf between her and
staff. A new principal deputy coordinator, who arrived after the business review and
reorganization, engaged in outreach that failed to resolve this fundamental disconnect.

        The bureau has achieved some notable successes, a tribute to the coordinator’s drive and
the staff’s commitment to its work. IIP supports more than 850 American Spaces worldwide.
These venues, which allow embassy staff to engage foreign publics to promote U.S. policy goals,
are a cornerstone of the Department’s 21st century PD work. IIP is also a technology leader. Its
Office of CO.NX/DVC interactive Web chats are in high demand throughout the Department.
Videos of newly arriving ambassadors have helped make chiefs of mission accessible to broad
publics in their country of assignment. During the inspection, IIP completed a Functional Bureau
Strategy, implementation of which lies in the future. IIP’s use of social media and connective
technologies, with the coordinator’s strong support, has resulted in explosive numbers of “fans”
and “followers.” The OIG team assesses the utility of that approach in the Digital Engagement
section of this report.

Leadership

        IIP’s front office leadership has focused on reorganizing the bureau’s structure without
adequate engagement in and oversight of administrative matters. The front office has paid
insufficient attention to mission-critical management controls, particularly in the areas of
performance management, contracting, and travel. Front office decisions and management style
do not reflect the PD family’s leadership tenets, which emphasize two-way communication and
esprit de corps. A more inclusive approach could have helped the coordinator achieve her large-
scale changes more easily and successfully.

        The coordinator believes she was hired with a mandate to “fix” IIP. The opaque business
review included a blackout period of several weeks, during which staff members knew little
about the bureau’s future direction or their roles in it. The coordinator announced the
reorganization at an all hands meeting, and the front office handled the reassignment of staff
poorly.


                                        4
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

         As a consequence of the reorganization, and the manner in which the coordinator handled
it, the already low morale in IIP has plummeted. A widespread perception exists that those who
question changes are marginalized or forced out of the bureau. Some employees have retired. A
Civil Service deputy coordinator position was eliminated. A year and a half after the
reorganization, the front office had yet to distribute an accurate organization chart. When the
OIG team asked for one, the front office provided a chart that was different from the one it
provided the Bureau of Human Resources (DGHR).

        A pervasive perception of cronyism exists in the bureau, aggravating the serious morale
problem. One original consultant stayed on, becoming a GS-15 Civil Service employee. A
second private-sector associate, originally hired as a Schedule B employee, also became a GS-
15. One received a quality step increase award shortly afterward. In both cases, some of their
duties fall well outside the scope of the responsibilities stipulated in their position descriptions.
IIP also hired a training consultant who was a friend of the coordinator. At the time of the
inspection, the consultant continued to conduct leadership training sessions for the bureau’s
middle managers. The coordinator and her deputy indicated that the consultant provided training
that the Foreign Service Institute did not.

         Sixty-six percent of IIP’s workforce responded to an OIG questionnaire asking them to
rate bureau managers on 13 leadership characteristics. The coordinator’s scores were the lowest
in every category compared with those received by any of the previous 14 assistant secretaries or
equivalents whose bureaus OIG inspected. Many staff members described the bureau atmosphere
as toxic and leadership’s tolerance of dissenting views as nonexistent. The OIG team found
examples of management-directed changes to position descriptions and job responsibilities,
including detail assignments outside the bureau, which staff perceived as punitive, an assessment
with which the OIG team concurs. The coordinator talked openly to inspectors about the need for
staff to “get on the bus.”

        One result of this approach is a kind of self-censorship. Employees seldom express their
opinions or provide input to senior management, fearing the consequences of doing so. In this
context, they may have been reluctant to pass on unwelcome information about travel regulations
and procedures to bureau leadership. Inspectors reviewed front office travel and found potential
issues with more than half of the vouchers submitted, including potentially inappropriate use of
premium travel, insufficiently documented and justified business class travel, and insufficiently
documented lodging costs. This report addresses procedural missteps in processing travel
requests and vouchers in the Resource Management section.

Recommendation 3: The Bureau of the Comptroller and Global Financial Services should
conduct an audit of all Bureau of International Information Programs front office staff travel for
the calendar years 2011 and 2012. (Action: CGFS)

       The current Functional Bureau Strategic Plan refers to the “constraints” of the Civil and
Foreign Service personnel systems. IIP staff widely believe the front office to be dismissive of
Civil Service staff in particular. Employees report that, on occasion, the coordinator shouts and
uses profanity at meetings. Such behavior is belittling and demeaning to staff and has a
devastating effect on morale.


                                        5
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        During the inspection the coordinator announced to bureau staff that she had submitted
her resignation.

Mission

        IIP provides and supports the physical and virtual venues, content, and infrastructure
needed to engage foreign publics in support of U.S. foreign policy. The Quadrennial Diplomacy
and Development Review and the 2011 strategic framework for PD call for IIP to build programs
for 21st century audiences. However, critical strategic questions remain unanswered.

         Several factors have adversely affected the clarity of IIP’s mission, and the Department’s
understanding of its mission. These factors include repeated reorganization and imperfect
integration into the Department. There is also some functional overlap with the Bureau of Public
Affairs (PA), the Bureau of Educational and Cultural Affairs (ECA), the Office of eDiplomacy,
and the Center for Strategic Counterterrorism Communication. In addition, the Department has
not implemented a comprehensive PD strategy. A strategic framework established concepts and
terms, but the Department has not translated the framework into a plan that links resources to
priorities.

Communications and Outreach

        Awareness of IIP’s capabilities and products varies in Department bureaus and at
embassies. Working-level staff in the bureaus appear satisfied with IIP support but lack a
complete understanding of the bureau’s mission and capabilities. Assistant secretaries
interviewed by inspectors indicated scant interaction with the IIP front office. Likewise, top-level
communication between IIP and the Department of Defense, Department of Commerce, and the
U.S. Agency for International Development does not take place. Lack of senior interaction
represents a missed opportunity for IIP to play a more vigorous role in promoting U.S. policy to
foreign audiences.

Recommendation 4: The Bureau of International Information Programs should implement a
comprehensive plan for outreach to the rest of the Department of State and key foreign affairs
agencies to maximize public diplomacy work with overseas publics. (Action: IIP)

        IIP and ECA have forged a useful working relationship, with representatives attending
each other’s staff meetings. They share an executive office. Their programs promoting English-
language learning complement one another. The situation is different between IIP and PA, where
confusion and friction exist, with each claiming encroachment on its territory. This friction also
hinders each bureau’s effective leveraging of its capabilities. Because the Smith-Mundt Act,
preventing domestic dissemination of materials developed for foreign audiences, remains in
place, these issues of overlap can be resolved.

Recommendation 5: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of Public Affairs and the Bureau of International
Information Programs, should identify any functional overlap between those bureaus and assign
responsibility appropriately. (Action: R/PPR, in coordination with PA and IIP)


                                       6
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        In embassies, some public affairs officers are better versed in IIP’s structural changes and
capabilities than others. Some indicate that they would like more consultation and involvement
as the bureau generates new initiatives, such as the eReader project described in the Mobile
Learning Initiative section, to ensure successful integration of the products into embassy work.

        Inside IIP, two-way communication and transparency remain elusive despite an intense
meeting schedule. There is near universal agreement that the number of meetings leaves little
time to complete vital work. Many employees also believe the meeting-heavy schedule is a
mechanism by which the front office exerts control. Staff members do not feel trusted to do their
work.

        In this context, two meetings deserve special note. The principal deputy coordinator
chairs an editorial board that meets weekly at length to review proposals for new products and
services. Staff reports spending many hours preparing for the meeting only to have decisions
deferred, concepts picked apart, and extraneous discussions eat up significant time. The OIG
team attended several board meetings and confirmed this to be the case. The team believes it
would be more appropriate to reserve the board for an annual or semiannual review of new
concepts with bureauwide consequences in order to provide guidance on themes and direction
for staff to implement. This format would leave daily decisionmaking to middle managers,
trusting that they will exercise sound judgment and bring issues to front office attention
appropriately.

Recommendation 6: The Bureau of International Information Programs should change the
editorial board’s role, reserving for it only high-level programmatic decisions and investing
middle managers with the authority to make day-to-day programmatic decisions. (Action: IIP)

        The coordinator and her principal deputy cochaired the project review board, which
examines projects with bureauwide technology impact, such as SharePoint. Supported by the
Content Support Services group, the board provides needed oversight and establishes a crucial
link between projects and resources. The Information Technology Management section of this
report includes a recommendation to strengthen the board.

        A leadership meeting on Tuesdays and a midweek meeting on Wednesdays include many
of the same personnel. The need for both is dubious.

       Informal Recommendation 1: The Bureau of International Information Programs should
       consolidate its weekly staff meetings.

Organizational Structure

        The coordinator’s reorganization created four groups: Regional Coordination and
American Spaces; Content Development; Platform Management, which involves Internet
platforms; and Content Support Services. An Office of Policy and Outreach and an Office of
Research and Evaluation are adjuncts of the front office. The reorganization divided
responsibility for the speakers program into three separate offices and created a new operation
called “package runners,” discussed below.


                                       7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The relentless pace of restructuring in IIP dictates a restrained approach to assessing the
most recent reorganization. Staff speak of “reorganization fatigue.” Accordingly, the OIG team
concentrated first on the speakers program and the package runner function, both issues that
senior management and staff indicated needed reassessment. The Policy and Program
Implementation section of this report addresses the team’s conclusions regarding these
operations. Inspectors also reviewed with affected staff the seemingly illogical placement of
several offices on the organizational chart, including the Office of Logistics; the Office of
Translation Services; the Office of Talent Management and Partnerships; and the Office of
Audience Research and Evaluation, which oversees the Mission Activity Tracker (MAT)
evaluation program. This report addresses each of these offices and makes recommendations.
Future IIP leadership may well choose to revisit other aspects of the reorganization, in
partnership with the staff who would be affected by any additional changes.

        As currently configured, IIP’s leadership team includes a principal deputy coordinator,
two deputy coordinators, and two managing directors. The principal deputy reports to the
coordinator. The other two deputies and the two managing directors report to the principal
deputy. This arrangement creates an unwieldy portfolio and excessive daily responsibilities for
the principal deputy. Establishing a direct reporting relationship between each deputy and the
coordinator would alleviate this burden and be more in line with standard Department practice.

Recommendation 7: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should change reporting requirements so that all deputy
coordinators report directly to the coordinator. (Action: IIP, in coordination with DGHR)

        During the reorganization, DGHR approved the creation of a Platform Management
group that reports directly to the principal deputy coordinator. However, neither IIP’s memo to
DGHR nor its proposed organizational chart identified the Platform Management’s leader as a
managing director, nor is it clear that the scope or size of the group would merit such rank.
Subsequently, DGHR, by its own admission, erroneously classified the position with the title of
managing director. According to 1 Foreign Affairs Manual (FAM) 014.6 a., “the Under
Secretary for Management (M) must approve, in advance and in writing, changes in functions
and responsibilities between bureaus, as well as the establishment of all Assistant-Secretary
equivalent positions and all deputy assistant secretary (or equivalent) positions, … , as well as all
managing director positions. Bureaus and/or offices should submit their requests to the Director
General of the Foreign Service and Director of Human Resources (M/DGHR) for approval prior
to submission to M.”

Recommendation 8: The Bureau of International Information Programs should submit a request
to the Bureau of Human Resources to reclassify appropriately the leadership position in the
Platform Management group. (Action: IIP, in coordination with DGHR)




                                       8
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
         IIP staff produces a high volume of quality PD material, including video products and
electronic and hard-copy books, pamphlets, and magazines. This material supports policy goals
or illustrates facets of American society. IIP also acquires PD material from a variety of
governmental and commercial sources. Personnel doing the work generally demonstrate an
understanding of and commitment to PD. However, the offices involved in producing and
acquiring PD material are not working with optimal efficiency. Leadership and management
shortcomings are a primary reason for production inefficiencies. A relatively inexperienced
deputy coordinator oversees the Content Development group. His failure to communicate
effectively with some of his own staff members has impeded his ability to advocate on their
behalf.

Partnerships

        The 2011 reorganization created an Office of Talent Management and Partnerships.
Talent management includes recruiting speakers and, in theory, candidates for activities such as
writing publications. Partnerships include the development of agreements with governmental and
private organizations to carry out PD activities. No organic connection exists between the work
of the speakers program and that of partnerships.

         IIP has actively sought partnerships with government and private-sector organizations.
The bureau has also pursued nocost gift agreements with U.S. firms for software, equipment,
maintenance, and services at American Spaces. Some of these agreements are still in process. In
some cases, the bureau did not determine in advance the PD value of the proposed partnerships
or gifts, did not devise a strategic plan that included buy-in from embassies, and did not commit
sufficient bureau resources to cover the project through its lifecycle. The nature of the
partnership effort and the level of contact with outside entities accord with the outreach function
of the Office of Policy and Outreach, an adjunct of the coordinator’s office. Proximity of the
Office of Policy and Outreach with the coordinator’s office would lend weight to the work.

Recommendation 9: The Bureau of International Information Programs should move the
development and maintenance of partnerships with governmental and private organizations to
the Office of Policy and Outreach. (Action: IIP)

Publications

         IIP develops written products in numerous forms and formats in support of embassy PD
work. These products range from books to pamphlets to an electronic magazine to individual
articles. The bureau distributes some written products in hard copy, especially in countries where
Internet access is problematic, but digital publishing and distribution have increased substantially
in recent years.

        A series of problems affect the bureau’s work flow. Most of them stem from the front
office and include a lack of prioritization; no guidance or contradictory guidance on expectations
for products; frequent, late interventions in the production process; shifting deadlines; and a


                                       9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

failure to take into account the impact of new projects on the production schedule. The net result
is inefficiency, wasted time, and an unreliable production schedule.

Recommendation 10: The Bureau of International Information Programs should implement an
annual publications plan that includes a production schedule and that takes staff resources into
account. (Action: IIP)

        Increasing emphasis on video, social media, and photographs has led in practice to a
diminution of the length and complexity of written content. The change has been gradual and de
facto, resulting in what some staff believe to be a “dumbing down” of content. IIP has not
conducted an analysis of what embassies need in written products with an eye to addressing
diverse audiences with varying levels of knowledge and interest in U.S. foreign policy matters. A
tweet on protecting wildlife has its place and purpose. So too does a publication discussing the
interplay between environmental stewardship and economic growth. Finding the right balance
between content length and complexity, and allocating publication resources to support that
balance, is crucial.

Recommendation 11: The Bureau of International Information Programs should conduct an
assessment of embassies’ needs for written products with a focus on influencing diverse foreign
audiences. (Action: IIP)

        The Office of Written Content assigns writers to produce articles that support policy
issues. The office distributes the articles directly to embassies, as well as through news
aggregators that make the information available to news agencies via the Internet. The news
agencies publish the articles with or without attribution. In some countries, the articles are read
on the air by radio journalists. The office’s procedure for assigning and supervising writers is
informal. Some writers receive their assignments from and work for one editor, their de facto
supervisor, but are rated by another who is unfamiliar with their work.

         This supervisory anomaly stems, in part, from the uncertain status of the articles
themselves. The number of staffers dedicated to writing policy-support articles has dropped from
about 50 in 2004 to 8 in 2012. Successive coordinators have deemphasized the work, which has
little visibility within the bureau. This function, properly resourced and supervised, can provide
meaningful policy support by filling a niche not addressed by commercial media. Formalizing
the activity would entail clarifying the reporting relationships between writers and their
supervisors and the relationship with the office’s copy desk, which plays a quality control role
for all written material.

Recommendation 12: The Bureau of International Information Programs should formalize the
production of policy-support articles, clarifying the supervisory relationships in the Office of
Written Content. (Action: IIP)

Video

        IIP develops video products that support embassies’ PD work. Embassies use videos in a
range of venues, including in support for events it holds with targeted public groups. A number
of factors extraneous to the Office of Video Production and Acquisition adversely affect the
production schedule and limit the development of new material. As with the Office of Written
                                       10
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Content, these factors originate in the front office and include lack of prioritization, late requests
for products, and unclear or contradictory guidance. A production plan that is aligned with
resources and reflects the increased importance of video in PD is essential to addressing these
deficiencies.

Recommendation 13: The Bureau of International Information Programs should develop an
annual plan, including a production schedule, that sets achievable targets and maximizes the
number and quality of video products the bureau develops for embassies. (Action: IIP)

       The video production staff consists of 2 full-time employees and 12 contractors.
Although the contractors bring impressive technical skills to bear, the small number of full-time
employees has led to some contractors representing the office in meetings and, in at least one
instance, directing the work of full-time employees. This phenomenon is not unique to the Office
of Video Production and Acquisition. The Resource Management section of this report
recommends that the Department carry out a workforce study for IIP.

       Contractors in the Office of Video Production and Acquisition regularly work
uncompensated hours beyond what their contract stipulates. Although IIP issues no formal
communication asking them to exceed their hours, in practice the timing, nature, and frequency
of requests to accomplish tasks leads to a de facto requirement. Nevertheless, the number of
uncompensated hours contractors work violates the spirit and letter of their contract. The
Resource Management section of this report addresses this issue.

Speakers

        IIP sends American experts abroad to speak publicly on topics in support of embassy
goals. In 2012, 406 persons traveled and 239 others participated in virtual programs. Embassies
typically rank these speakers high on their list of PD priorities. As configured, responsibility for
speaker programs is shared among three offices. The Office of Talent Management and
Partnerships recruits candidates; the Office of Regional Coordination coordinates with
embassies; and a third office, currently in the Content Support Services group, handles logistics,
including speaker travel.

       This structure creates several problems. With diffuse responsibility, no single office or
individual has final accountability for a program. Having several staff members contact recruited
speakers sometimes confuses the speakers, duplicates efforts, and leads to scheduling errors. In
addition, some staff members in the Office of Regional Coordination lack sufficient training on
how to organize a speaker program.

        One goal of the 2011 reorganization was to provide embassies a single point of contact
with the bureau through the creation of an Office of Regional Coordination. Channeling all
embassy contact through this group has not proved workable for the speakers program. In
practice, a workaround has developed. When necessary, a staff member who must be in touch
with an embassy does so while confirming that the designated regional coordination officer is
aware of the contact.




                                        11
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       These structural shortcomings impede efficiency and increase the likelihood of error
while reducing job satisfaction. Consolidating responsibility for all elements of the speaker
program would help address these concerns.

Recommendation 14: The Bureau of International Information Programs should unite all
components of the speakers program, including recruitment and logistics, in the Office of
Regional Coordination. (Action: IIP)

        Embassies submit evaluations of less than 25 percent of the speakers they host. This lack
of followup prevents the bureau from assessing the quality of speakers and determining their
suitability for future participation in the program.

Recommendation 15: The Bureau of International Information Programs should require
evaluation reports for all speaker programs. (Action: IIP)

Grants for Expert Speakers

        The Office of Logistics handles speakers’ travel and typically uses individual grants to
pay for their travel and lodging expenses. Contrary to regulations, the office books the majority
of the airline tickets with U.S. Government contract fares. The Department’s Grants Policy
Directive 10 states that city pair contract fares or any other General Services Administration-
negotiated travel fares or hotel rates may not be used for individual grantees.

Recommendation 16: The Bureau of International Information Programs should use only
publicly available travel fares when booking travel for individual grantees. (Action: IIP)

        Grants officers, located in the joint ECA-IIP Executive Office, do not have adequate
procedures and guidance to exercise oversight over individual grants. The 2011 ECA inspection
report also noted these problems and recommended moving the management of individual grants
from the joint Executive Office’s Support Services division to the office’s Grants division.
Despite this change, the Grants division has not addressed a number of problems. Many
individual grants files are incomplete. In some cases, the grants officer does not receive enough
information to conduct a complete review before approving grants. The Grants division is also
unfamiliar with many key provisions in the grants policy directives about individual grants and
the requirements to close grants after conclusion of the speaker’s program.

Recommendation 17: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should implement procedures to include
oversight and proper documentation of all grants requirements for individual travel from the pre-
award stage through closeout. (Action: IIP, in coordination with ECA)

       One talent recruiter has significant additional responsibilities as liaison to the Judicial
branch. These duties include contact with Justices of the Supreme Court, and they limit the
incumbent’s time to recruit speakers. The volume of work required equates to a full-time job.
Given the range, level, and nature of the contacts, the work fits into the outreach function of the
Office of Policy and Outreach.


                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 18: The Bureau of International Information Programs should move judicial
liaison duties to the Office of Policy and Outreach. (Action: IIP)

Policy

         The 2011 reorganization cast relatively junior Civil Service staff members as package
runners in the Office of Policy and Outreach. These employees are responsible for functional
bureau liaison and for coordinating IIP products in support of the functional bureaus’ PD work.
The package runner system has not worked well. The staffers do not have the authority or
experience to task office directors and other more senior staff people. They have also been
caught up in the editorial board process. They have significant responsibility, but no authority,
and are held accountable for outcomes over which they have little control. Moving these
employees to the Regional Coordination and American Spaces group would allow them to play a
true liaison role.

Recommendation 19: The Bureau of International Information Programs should move the
package runner function to the Regional Coordination and American Spaces group and redefine
staff responsibilities. (Action: IIP)

        The coordinator gave a senior advisor, who has been acting Office of Policy and
Outreach director since 2012, responsibility for oversight of bureau contracts. The employee,
who joined IIP shortly after the coordinator arrived, has a private-sector background and no
previous government contracting experience. The arrangement interferes with the authority of
the contracting officer’s representatives and their supervisors and creates potential vulnerabilities
for the Department.

Recommendation 20: The Bureau of International Information Programs should remove
contract management and oversight from the senior advisor position in the front office. (Action:
IIP)

         Outreach duties of the Office of Policy and Outreach include liaison within the bureau,
within the Department, and with other organizations. IIP has had some success making its role
known in the Department by sponsoring exhibits highlighting its work. A daily activity report
effectively captures the good work the bureau accomplishes. Moving partnerships and judicial
liaison into the Office of Policy and Outreach, as this report recommends, will strengthen IIP’s
ability to develop productive relationships that enhance PD support for embassies. That the
Office of Policy and Outreach is colocated with the coordinator’s office will lend the effort
additional weight.

Audience Research and Evaluation

       The Office of Audience Research and Evaluation is charged with assessing bureau
programs and conducting audience research for PD work. It is not performing either duty
adequately. The coordinator brought a former colleague from the private sector into the bureau to
oversee the operation, which is attached to the front office. However, that employee had no U.S.
Government experience with the issues surrounding PD research or familiarity with the
programs, products, and services IIP offers. At about the same time, the Office of Under
Secretary for Public Diplomacy and Public Affairs transferred to IIP the responsibility for
                                       13
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

managing a PD database for tracking embassies’ work, along with the responsibility for
preparing a report assessing the global impact of PD. Since the 2011 reorganization that put these
changes in place, the office has accomplished little.

Evaluation

        The Government Performance and Results Act of 1993 mandated the evaluation of
Federal programs as part of agencies’ strategic planning. Since then, evaluation has figured
prominently in assessing effectiveness. The Quadrennial Diplomacy and Development Review
places a premium on data-driven decisions, and the Department has attempted to establish the
terms on which PD can be assessed. Success has been limited. One difficulty is the long-term
nature of PD work. Engaging a future leader with an American expert, or a book or program at
an American Space, may pay off years after the investment.

        IIP evaluates some but not all its activities. Oversight of a database called MAT, which
collects and assesses PD activity, resides in the Office of Audience Research and Evaluation.
Because a high percentage of MAT data relates to ECA’s overseas work, not IIP’s, it would be
more appropriate for MAT to be under the purview of the Under Secretary for Public Diplomacy
and Public Affairs, which has responsibility for and oversight of all of PD.

Recommendation 21: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of International Information Programs, should assume
management of the mission activity tracker. (Action: R/PPR, in coordination with IIP)

Recommendation 22: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of International Information Programs, should assume
responsibility for producing the public diplomacy impact report. (Action: R/PPR, in coordination
with IIP)

Audience Research

        The Office of Audience Research and Evaluation obtains information about PD
audiences and foreign publics from several sources, including data from MAT; an information
dashboard1 from the Office of the Under Secretary for Public Diplomacy and Public Affairs;
reporting from the Bureau of Intelligence and Research’s Office of Opinion Research; and,
potentially, the analytics of private-sector companies.

        To assemble this information in one place and make it available to embassies, the office
began developing an application called the “audience research kiosk.” At the time of the
inspection, there were no criteria to evaluate the success of the pilot program, no timetable, and
no identified budget. Some audience research information is already available to PD officers.
The potential convenience to users of collating several sources of easily accessible information
does not warrant the expense required to make it happen.



1
 A dashboard is a visual, simplified representation of data that are structured into predefined views or user-defined
queries to facilitate easy access to and use of information.
                                            14
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 23: The Bureau of International Information Programs should discontinue the
audience research kiosk project. (Action: IIP )

        Managers in the Office of Audience Research and Evaluation do not have the technical
expertise to manage IT. At the time of the inspection, neither the audience research kiosk nor the
MAT application had undergone security and privacy impact assessments as outlined in 5 FAM
611. The office distributed over 100 audience research kiosk passwords without adhering to the
Department’s password policy. The office then rescinded access to the application. The IT office
in the ECA-IIP Executive Office provides shared IT services to IIP, including IT development
and security management.

Recommendation 24: The Bureau of International Information Programs, in coordination with
the Office of the Under Secretary for Public Diplomacy and Public Affairs and the Bureau of
Educational and Cultural Affairs, should move all information technology management
responsibilities from the Office of Audience Research and Evaluation to the Bureau of
Educational and Cultural Affairs. (Action: IIP, in coordination with R/PPR and ECA)

        IIP consults occasionally with the Office of Opinion Research in the Bureau of
Intelligence and Research, which conducts and commissions audience research on foreign
publics’ attitudes on issues of interest to the United States. A more structured relationship could
improve IIP’s research effort and its ability to develop targeted PD products.

       Informal Recommendation 2: The Bureau of International Information Programs should
       coordinate with the Bureau of Intelligence and Research to formalize a process for
       sharing research results.

        IIP is interested in using analytic data available through commercial sources. The Office
of the Legal Adviser has expressed concern over the potential acquisition and use of personally
identifiable information along with the data. IIP and the Office of the Legal Adviser continue to
review this issue, the outcome of which could materially affect the bureau’s ability to acquire
and use private-sector data.

        Given the Office of Audience Research and Evaluation’s low productivity, and the shift
of some responsibilities to the Office of the Under Secretary for Public Diplomacy and Public
Affairs recommended above, the position description of the senior person in the office is no
longer accurate, and it is unclear how this position fits into bureau operations.

Recommendation 25: The Bureau of Human Resources, in coordination with the Bureau of
International Information Programs, should conduct a desk audit of the senior position in the
Office of Audience Research and Evaluation. (Action: DGHR, in coordination with IIP)

Translations

        IIP translates PD material into seven foreign languages. Civil Service employees and in-
house contractors edit and translate the bureau’s information products. During the inspection,
seven translator positions remained unfilled pending the results of testing done by the Bureau of
Administration, Office of Language Services. There is disagreement between IIP and the Office

                                       15
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

of Language Services over the timing and other aspects of the testing process. An agreement
between the two will improve the flow of information and speed the process.

Recommendation 26: The Bureau of International Information Programs, in coordination with
the Bureau of Administration, should implement a memorandum of understanding governing
their interactions on certifying translators. (Action: IIP, in coordination with A)

        In addition to bureau translation staff, IIP employs contract translators to meet its needs.
The 2011 reorganization led to increased use of contract entities to do translations, with several
negative consequences. Quality is inconsistent, and delivery can be late. In some instances, staff
believe a company delivered translations done by a software program, sometimes without human
editing. The firm fixed-price contract for translation services is for $2 million, which exceeds the
office’s business needs and wastes government funds.

Recommendation 27: The Bureau of International Information Programs should modify the
existing contract for translation services or solicit a new contract for these services. (Action: IIP)

        The 2011 reorganization transferred the translation staff to the Content Support Services
group, which includes IT. Translators and editors opposed the move because it separated them
from the authors of the material they translate. Getting the translations right is work that depends
on nuance and close collaborate among authors, translators, and editors. The translation
operation belongs with the Content Development group, which includes those who produce IIP’s
written material.

Recommendation 28: The Bureau of International Information Programs should move the
Office of Translation Services to the Content Development group. (Action: IIP)




                                        16
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Regional Coordination and American Spaces
       The 2011 reorganization created the Regional Coordination and American Spaces group,
overseen by a deputy coordinator, to create a single point of contact for embassies and
Department bureaus and to support the expanded mandate of 850 American Spaces worldwide.
American Spaces are entities that provide a platform for foreign audiences to learn about
American society and culture and foreign policy issues.

         American Spaces include Department-owned facilities such as American centers and
Information Resource Centers; independent contracted facilities, such as @America in
Indonesia; binational centers, which are independent facilities collaborating with U.S. embassies;
American Corners, located in partner institutions such as universities and public libraries; and
other specialized facilities such as science corners and American shelves, located in partner
institutions.

Office of American Spaces

       The Under Secretary for Public Diplomacy and Public Affairs has directed IIP to work
with ECA to support five core programs at American Spaces: English-language learning;
exchange program alumni activities; cultural programs; educational advising for study in the
United States; and providing information about the United States.

Management of the Office of American Spaces

        The 2011 reorganization added a Foreign Service FS-01 director and an FS-02 strategic
planning officer to the Office of American Spaces. These positions overlay an existing structure
that had an IRO supervising and supporting other IROs in the field. The rationale for adding two
generalists was to bring a Foreign Service generalist perspective to IRO work.

         IROs are Foreign Service specialists with advanced degrees in library science and
experience in managing information resource programs and facilities. At an embassy, IROs may
be resident in the capital city but support all American Spaces in a large country or cover
facilities in several neighboring countries. The current IRO corps has taken on the expanded
responsibility that came with a sizable budget increase, but a commensurate increase in
personnel has not followed. Hiring barely keeps up with attrition, with several experienced IROs
eligible for retirement in the next few years.

Greatly Increased Funding for American Spaces

        The Under Secretary for Public Diplomacy and Public Affairs has underscored the
importance of American Spaces by greatly increasing funding for them, augmenting the existing
$4.5 million in annual base funding with $15 million yearly. The Under Secretary also
transferred an additional $17 million to the Bureau of Overseas Buildings Operations (OBO) for
the maintenance and construction of Department-owned American Centers, to be spent over the
next few years over and above the $6.5 million OBO line-item request for FY 2013.



                                      17
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        IIP does not consult adequately with IROs and public affairs officers in the field. Under
the current system, the Office of American Spaces solicits requests from embassies for support
funds and then consults with the regional bureau PD offices and ECA to evaluate each proposal.
IIP has issued comprehensive standards for the spaces and established clearer guidelines for
requesting support funds. However, strategic planning in IIP and followup in the field are also
essential to managing a significantly larger budget, enforcing standards, and ensuring
accountability.

Recommendation 29: The Bureau of International Information Programs should implement a
strategic plan for American Spaces that addresses accountability for the increased budget.
(Action: IIP)

Recommendation 30: The Bureau of Human Resources, in coordination with the Bureau of
International Information Programs, should assess staffing needs and create a succession
management plan for the information resource officer corps. (Action: DGHR, in coordination
with IIP)

Need for Leadership and Strategic Vision

       The Office of American Spaces does not have a permanent, full-time financial manager
with experience managing large budgets to track expenditures, coordinate with Department
bureaus on financial and program issues, and prepare analytical and statistical reports. A now-
vacant senior advisor position could be used to fill this gap.

Recommendation 31: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should assign a permanent full-time employee with experience
in resource management and budget planning to a vacant full-time employee position to manage
and track the American Spaces budget. (Action: IIP, in coordination with DGHR)

Mobile Learning Initiative

         Senior PD leadership conceived an initiative to provide eReaders to embassies and
American Spaces. IIP would purchase the devices and the content by contract, benefiting from an
economy of scale, and deliver eReaders to embassies. However, the embassies had no input in
planning the initiative. IIP delivered the first batch of 2,000 eReaders to embassies without
advance notice or procedures in place to register the devices and download content, which took
significant staff time, especially in regions with poor electronic infrastructure. IIP learned from
these mistakes, and a second batch included preregistered devices. Despite these difficulties,
some IROs found creative ways to use the devices in programming. Others, in countries with
advanced technology, commented that their audiences were not interested in devices without the
latest in touch-screen technology. The consensus among IROs was that if they had been
consulted in advance, they could have contributed to more effective PD use of eReaders.

        As the bureau was planning the second phase of the initiative, an organization protested
the Department’s sole-source solicitation for the project, asserting that the selected eReader is
not compliant with Section 508 requirements pertaining to information access for persons with
disabilities. The Department retracted the solicitation, and the bureau spent several months
reevaluating its approach. By March 2013, the bureau had changed the initiative’s goal to focus
                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

strictly on providing digital content to eReaders. This approach gives greater flexibility to
embassies in determining the appropriate eReader technology for their region. However, the new
plans are still vague on the initiative’s overall goals. The bureau does not have specific
objectives to define success or a timeline to shift from an initiative requiring increasing resources
each year to a program with predictable demands and a regular budget. These objectives are
essential to measure the success of the initiative and to provide oversight.

Recommendation 32: The Bureau of International Information Programs should implement a
plan for the eReader learning initiative that includes measurable goals. (Action: IIP)

       IIP has supplied 2,000 eReader devices to embassies around the world. These devices
must be tracked and managed to avoid loss or theft. The bureau’s Office of Research and
Evaluation asked embassies to report on the eReaders in their possession, but not all embassies
responded. The office is focusing on the question of replacement rate, not of responsibility for
managing Department property. Furthermore, the existing property management system for IT
does not easily include eReaders in embassy inventories. Some embassies have created their own
tracking solutions, but these cannot address the question of central property management.

Recommendation 33: The Bureau of International Information Programs should create a
property management plan for bureau-supplied eReader devices currently in embassies. (Action:
IIP)

Office of Regional Coordination

        An acting office director heads the Office of Regional Coordination and also serves as
one of six division chiefs for geographic units that correspond to the Department’s regional
bureaus. These units serve as the embassies’ primary point of contact with IIP. Although regional
bureaus and embassies have generally welcomed this new system, some IIP employees feel
frustrated at not being in direct contact with embassies. They believe the arrangement makes it
more difficult for them to understand and respond to embassies’ needs.

        The absence of a permanent office director contributes to uncertainty about priorities and
a scarcity of information about the bureau’s goals and objectives. Although regional coordination
officers exhibit professionalism and dedication, they would benefit from closer and more
consistent leadership. The front office has not made filling the job a priority.

Recommendation 34: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should assign a permanent director for the Office of Regional
Coordination. (Action: IIP, in coordination with DGHR)




                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Digital Engagement
        The 2011 reorganization created the Platform Management group to encompass three
offices with online activities: the Office of Web Engagement, which conducts direct outreach to
foreign audiences through social media and provides embassies with content for their own
efforts; the Office of Innovative Engagement, which explores new PD technologies, liaises with
social media companies, and advises embassies and other offices on the use of technology; and
the Office of CO.NX/DVC, which manages video conferencing and interactive Web chats.

        There is overlap and a lack of clarity in the functions and responsibilities between the
Office of Web Engagement and the Office of Innovative Engagement. Staffing gaps in the latter,
coupled with a 15-month vacancy in the director position, have left the office adrift and less able
to play its role as the bureau’s new technology pioneer.

        An example of overlap is IIP’s 20/100/100 program, which helps 20 embassies at a time
raise their social media fan base by 100 percent in 100 days. At the conclusion of an embassy’s
participation in the program, its social media staff members frequently turn to the Office of Web
Engagement rather than the Office of Innovative Engagement for advice. As the number of
participating embassies rises with each round of the program, the advising function is shifting to
the Office of Web Engagement, drawing staff members away from their primary duties. The
Office of Innovative Engagement is the proper place for this function for two reasons. First, its
mandate is to keep up with the latest changes in social media rules and approaches. Second, it
runs the Social Media Hub, the Department’s primary repository of this information.

Recommendation 35: The Bureau of International Information Programs should clarify the
respective scope, roles, and responsibilities of the Office of Innovative Engagement and the
Office of Web Engagement. (Action: IIP)

         Contractors make up 71 percent of the staff in the Platform Management group. None of
its offices could carry out its basic functions without contractors, who perform tasks similar to
those of direct-hire employees. IIP’s significant problems managing contracts, addressed in the
Resource Management section of this report, have hurt morale and caused some contractors to
miss days of work; take pay cuts unrelated to any changes in their work or performance; take on
duties outside the scope of their contracts; and live with uncertainty about whether they suddenly
will lose their jobs. Even if IIP solves its contracting difficulties, the stability and function of
these offices requires a higher proportion of direct-hire staff. Because IIP relies heavily on
contractors, the bureau has assigned them to serve as chief liaison with social media companies,
to manage major programs or initiatives, and to represent the Department at outside events.
These functions are more appropriate for direct-hire staff. Contractors are normally ineligible for
Department training, hindering their professional development and skill upgrades. Some topical
or language teams have no direct-hire staff, making team coordination more difficult. The
Resources Management section of the report makes a recommendation on the need for a
workforce study to address this problem.




                                       20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Social Media

       With the Department’s use of social media comes strategic questions of the role, purpose,
and limitations of the medium. A consensus is emerging that developing numbers of Facebook
followers and Twitter fans may not lead automatically to target audience engagement.

        After the 2011 reorganization, the coordinator initiated a push to expand the bureau’s
presence on social media and other digital platforms. IIP started or expanded English-language
Facebook pages, Twitter feeds, and blogs aimed directly at foreign audiences. The bureau also
started or expanded online activities in six foreign languages.

        The coordinator initiated two campaigns in 2011 and 2012, with the goal of building
global outreach platforms for engagement with foreign audiences by increasing the number of
fans on IIP’s four thematic Facebook properties, primarily through advertising as well as through
some page improvements. The bureau spent about $630,000 on the two campaigns and
succeeded in increasing the fans of the English Facebook pages from about 100,000 to more than
2 million for each page. Advertising also helped increase interest in the foreign language pages;
by March 2013, they ranged from 68,000 to more than 450,000 fans.

        Many in the bureau criticize the advertising campaigns as “buying fans” who may have
once clicked on an ad or “liked” a photo but have no real interest in the topic and have never
engaged further. Defenders of advertising point to the difficulty of finding a page on Facebook
with a general search and the need to use ads to increase visibility.

        IIP’s four global thematic English-language Facebook pages had garnered more than 2.5
million fans each by mid-March 2013; the number actually engaging with each page was
considerably smaller, with just over 2 percent “liking,” sharing, or commenting on any item
within the previous week. Engagement on each posting varied, and most of that interaction was
in the form of “likes.” Many postings had fewer than 100 comments or shares; the most popular
ones had several hundred.

        In September 2012, Facebook changed the way it displays items in its users’ news feeds.
If a user does not interact with a site’s postings, after a time these postings will no longer appear
in the user’s news feed unless the site buys sponsored story ads to ensure their appearance. This
change sharply reduced the value of having large numbers of marginally interested fans and
means that IIP must continually spend money on sponsored story ads or else its “reach” statistics
will plummet. For example, a posting on cyber censorship in March 2013 reached 234,000
Facebook users on its first day; only about 20,000 would have received the item on their news
feed without advertising. An item on “Women and the Web” reached the news feeds of 360,000
people; without advertising, 27,000 would have received it.

        After the major advertising campaigns, the coordinator shifted the focus away from
increasing total fan numbers and toward engagement, as measured by “likes,” shares, and
comments. IIP has targeted the bulk of its sponsored story ads in a way most likely to boost
engagement statistics. The bureau uses Facebook’s automated system to place the sponsored
story ads into the 25 countries with the largest number of young users and the highest
engagement rates, regardless of the item’s content, importance, and relevance to the countries in
which the ad appears. However, engagement is a means, not an end. The bureau could reduce
                                       21
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

spending and increase strategic impact by focusing its advertising not on raising overall fan
numbers or general engagement statistics but on accomplishing specific PD goals. This approach
would entail tying any general page advertising to the promotion of special information content
on high-priority issues as well as manually selecting key items as sponsored stories and
advertising them only to relevant countries and audiences. This approach would also be in line
with the November 2012 report of the Social Media Working Group, which endorsed “judicious
and targeted use of paid advertising,” and telegram 13 State 06411, Social Media Guidance
Cable #1: Social Media Advertising, which advocated a “selective use of social media
advertising” in a “strategically planned, well-targeted” campaign with preset goals and
evaluation. During the inspection, IIP paused its Facebook advertising to assess its sites and
goals.

Recommendation 36: The Bureau of International Information Programs should direct its
digital advertising to specific public diplomacy goals in keeping with Department of State
guidance. (Action: IIP)

         In recent months, IIP leadership instructed social media staff members to put more
policy-oriented information on their sites. However, page managers were concerned that too
much policy material, especially if it is not related closely to the primary interest of the page
fans, would drive away their youthful audience and cause their fan numbers and engagement
statistics to drop. They felt caught between conflicting directives. In March 2013, IIP was
developing a social media policy strategy. This kind of document is essential to clarify the goals
of IIP’s social media efforts, acknowledge the tradeoff between seeking high numbers of fans
and engaging with foreign audiences, and find the right balance between youth and elite
audience engagement.

Recommendation 37: The Bureau of International Information Programs should adopt a social
media strategy that clarifies the primary goals and public diplomacy priorities of its social media
sites. (Action: IIP)

        Facebook analytic tools can measure engagement by counting the number of people who
click on a link, “like” a posting, comment on it, or share it with their friends. However, these
measures do not evaluate the usefulness of the engagement because many people post simple
remarks, like “so nice pic,” or comments on unrelated topics. A sampling of IIP’s Facebook sites
raises questions about how much real interaction is taking place. During the inspection, the
bureau began to address the need to analyze the sites’ effectiveness with an eye to determining
how much of the activity classed as engagement actually accomplishes PD goals.

        Staff members working on the IIP social media sites send out their best items in a daily
social media feed for U.S. embassies, a service that PD officers overseas praise as a valuable
contribution to their own social media efforts. Some say the items would be more useful if they
were available earlier in the day. Placing items on an embassy-accessible internal digital site as
they are prepared would enable posts to use them earlier.

       Informal Recommendation 3: The Bureau of International Information Programs should
       make its social media feed items accessible to embassies online before sending out the
       daily social media feeds.

                                       22
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Interactive Global Web Broadcasts

        IIP has made astute use of technology to produce live, interactive Web broadcasts and
Web chats. The Office of CO.NX/DVC portal allows numerous embassies simultaneously to
participate in these programs, including some in countries with low bandwidth. The response
from embassies and the Department has been enthusiastic, and the office was recognized by a
private-sector technology group for its innovation.

         Success has brought the challenges that come with growth. The CO.NX/DVC staff has
received an increasing number of requests to carry out programs that have no connection to PD.
Because the Department currently has limited technical capacity of the type that CO.NX/DVC
offers, it will be important for the bureau’s senior management to implement guidelines under
which the office responds to out-of-scope requests for support.

       Informal Recommendation 4: The Bureau of International Information Programs should
       establish guidelines setting priorities and clarifying the circumstances under which the
       Office of CO.NX/DVC will support requests that do not support public diplomacy goals.

Coordination with Other Bureaus

        Department offices and bureaus have established more than 150 social media accounts,
and the Department has been wrestling with the issue of strategy and coordination. IIP
participated in the Departmentwide Social Media Working Group, which issued a report in
November 2012 noting that the issue of who, if anyone, should coordinate social media
throughout the Department remains unresolved. Although these larger issues are beyond the
scope of this report, IIP and other bureaus can take several steps to improve day-to-day
cooperation.

        PA has established Facebook, YouTube, Google+, Flickr, and Tumblr and Twitter sites
in English and 10 foreign languages. There is limited communication and no regular meetings
between PA and IIP to discuss what each bureau is doing in this area, leading to duplication of
effort. Clearly specified roles and division of duties would increase cooperation between and
efficiency in these two bureaus.

Recommendation 38: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of International Information Programs and the Bureau of
Public Affairs, should establish a written delineation of the roles, audiences, and parameters for
social media in the two bureaus. (Action: R/PPR, in coordination with IIP and PA)

Recommendation 39: The Bureau of International Information Programs, in coordination with
the Bureau of Public Affairs, should establish a regular meeting among working-level social
media staff members. (Action: IIP, in coordination with PA)

        The Department’s effort to engage with the Iranian people has resulted in overlapping
social media efforts by IIP and the Bureau of Near Eastern Affairs (NEA). Each has a Persian-
language Facebook page and Twitter feed. Because of the sensitivity of Iran policy, IIP’s
Facebook page, Vision of America, covers only “soft” nonpolicy topics like American culture,
entrepreneurship, the environment, and science and technology. The NEA-run page,
                                      23
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

USAdarFarsi, includes both policy and nonpolicy topics. Thanks to advertising, Vision of
America has more fans—more than 400,000 in mid-March 2013, compared to USAdarFarsi’s
100,000. However, less than 1 percent of IIP site fans were living in Iran, where there is no
Facebook advertising, whereas more than half of NEA site fans were in Iran. Despite its greater
fan numbers, Vision of America’s total engagement is about equal to USAdarFarsi’s, with about
12,000 people sharing, “liking,” or commenting on any item on each site within the previous
week in mid-March 2013. The IIP and NEA Twitter sites are the same size, with about 15,000
followers each.

        It is not efficient for the Department to have competing Persian-language Facebook and
Twitter sites. It is important for the United States to have a platform for speaking to the Iranian
people. Locating the joint Persian-language social media sites in NEA would place them closest
to the policymakers and recognize the fact that USAdarFarsi has greater reach in Iran. At the
same time, it is important for Iranians to understand American society and values, which is the
expertise the IIP social media staff provides.

Recommendation 40: The Bureau of International Information Programs, in coordination with
the Bureau of Near Eastern Affairs, should merge Vision of America social media properties into
USAdarFarsi social media properties under Bureau of Near Eastern Affairs leadership. (Action:
IIP, in coordination with NEA)

        NEA also runs Virtual Embassy Tehran, a Web site established in 2011 with IIP’s
assistance. It looks like a normal embassy Web site and uses IIP’s Standard Content
Management system. In the past there were regular meetings between the NEA and IIP Persian-
language social media and translation teams to facilitate joint planning and efficient use of
resources; however these meetings ceased in 2012. IIP’s social media staff also noted lack of
Persian-language content that is tailored to the Iranian audience.

Recommendation 41: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
International Information Programs, should establish regular meetings between the staffs of the
two bureaus working on outreach to Iran. (Action: NEA, in coordination with IIP)




                                       24
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Resource Management
       Table 1: FY 2013 Bureau of International Information Programs – Staffing*

U.S. Staff – IIP On Site
   Foreign Service             Civil Service            Contractors              Total
           26                       160                    142                    328
U.S. Staff – Executive Office**
   Foreign Service             Civil Service            Contractors              Total
            0                        46                     61                    107
U.S. Staff – Overseas+
   Foreign Service             Civil Service            Contractors              Total
           23                        0                      0                      23
* These numbers do not include 13 student interns, 1 when actually employed individual, 4
detailees, and any off-site contractors working on performance contracts.
** IIP contributes funding for these positions.

      Table 2: FY 2012/13 Bureau of International Information Programs – Funding

                                                 FY 2011/12
                                                                  FY 2012/13
            Funding Categories                     Carry                             Total
                                                                   Funding
                                                  Forward
Personnel Compensation                                       0 $1,003,812*         $1,003,812
Travel and Transportation of Persons                  $58,288 $2,343,534           $2,401,822
Transportation of Things                               $2,647         $3,580           $6,227
Rent, Communications, and Utilities                   $37,903 $3,645,072           $3,682,975
Printing and Reproduction                          $1,250,000       $331,959       $1,581,959
Contracting and Other Services                     $9,221,951 $45,734,176         $54,956,127
Supplies and Materials                                       0      $867,095         $867,095
Personal Property                                  $2,263,277       $780,288       $3,043,565
Grants, Subsidies, and Contributions                  $90,576 $3,850,455           $3,941,031
Total IIP Funding (Diplomatic and Consular
                                                  $12,924,642 $58,559,971         $71,484,613
Programs)
* Direct-hire employees paid from Diplomatic and Consular programs.

        The Executive Office supports two bureaus, ECA and IIP, along with the Center for
Strategic Counterterrorism Communications, the Office of the Special Representative for
Muslim Communities, and the Office of the Under Secretary for Public Diplomacy and Public
Affairs’ Office of Policy, Planning, and Resources. Under a service-level agreement, the
Executive Office also provides human resources support to the Bureau of Economic, Energy, and
Business Affairs. Portions of the office were inspected in 2011, as part of the ECA inspection,
resulting in recommendations to improve management operations and strengthen grants
management. The IIP inspection was limited to a review of IIP’s Financial Management unit;
Human Resources unit; and combined Grants, Support Services, and IT units.


                                      25
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        The joint Executive Office’s performance is weak. In personal questionnaires and
interviews, customers rated the Human Resources unit low. Budget, Support Services, and IT
units received average scores. Management controls were a concern in the areas of performance
management; travel; and procurement, including contracts. As a result of the 2011 ECA
inspection, the Executive Office identified areas for improvement and began making changes to
improve administrative services and processes. Although these changes are a start, additional
improvements are needed.

       During the inspection the ECA-IIP executive director and the deputy for IIP left their
jobs. The latter’s replacement served 4 weeks before becoming acting director.

Financial Management

       The Financial Management unit provides adequate support. Staffing is sufficient to
handle the workload. Financial services received average customer service scores. Morale is
mixed. Inspectors heard a few complaints from IIP staff about financial processes. The unit is
developing standard operating procedures.

         The Financial Management unit reconciled most of its unliquidated obligations for grants,
travel, and miscellaneous items. At an inspector’s request, unit staff also researched 177 reported
prior-year unliquidated obligations and found them to be valid. Most IIP funding is spent on
contract services.

       The Bureau of Administration’s Office of Acquisitions staff is responsible for contract
services funds management for IIP operations. The IIP unliquidated obligation report showed
some low-dollar obligations and obligations from 2007 through 2009 that could be deobligated.
The Support Services unit has not been coordinating effectively with the Bureau of
Administration’s Office of Acquisitions staff to reconcile obligations for IIP contracts according
to Department guidelines in 4 FAM 225 and 4 FAM 087.2.

Recommendation 42: The Bureau of Administration, in coordination with the Bureau of
International Information Programs, should deobligate Bureau of International Information
Programs accounts with expired funding, completed performance, and small obligated amounts.
(Action: A, in coordination with IIP)

Human Resources

        The Human Resources unit provides mediocre service to IIP customers. One specialist
position has been vacant for 20 months. Unit managers state that when all three specialist
positions are filled, staffing meets customer demand.

       As a delegated examining unit, the Human Resources unit is subject to annual reviews. In
2011, DGHR gave the unit a satisfactory rating but noted the need to improve some procedures
and documentation. A full-scope review is scheduled for FY 2014.




                                       26
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Customer Service

        IIP’s 2012 customer service satisfaction survey showed that 40 percent or more of
respondents were dissatisfied with the Human Resources unit’s responsiveness, communication,
resolution of requests, and information on the status of requests. More than 26 percent of
respondents were dissatisfied with the unit’s courteousness, professionalism, technical
knowledge, and helpfulness. A 2013 OIG customer service satisfaction survey also gave the unit
low scores. The OIG team received numerous complaints during interviews.

        The joint Executive Office’s intranet site is organized poorly. It does not have links to the
Department’s human resources online self-service tools or the Human Resources Service Center.
The site does not include policies and procedures for time and attendance, alternate work
schedules, and employee relations. Some posted policies and procedures are not dated. The
intranet site also lacks an organizational chart for either the joint Executive Office or the bureau,
nor does it include information on its Financial Management and Human Resources units or on
frequently asked questions.

Recommendation 43: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should revise its human resources standard
management policies and procedures and reorganize and categorize them on its intranet Web site
to improve user information access. (Action: IIP, in coordination with ECA)

Recommendation 44: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should determine what type of personnel
questions and issues should be sent to the human resources officer for action and post them on
the intranet site. (Action: IIP, in coordination with ECA)

        Some IIP human resources staff seem unaware of customer complaints. Others are
sensitive to the unit’s performance but claim that IIP supervisors do not provide them required
documentation support. All feel unappreciated, which affects their motivation and morale.
Greater attention to staff training, performance evaluations, and information quality and delivery
will be key to solving these problems.

Recommendation 45: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should provide its human resources staff with
customer service training. (Action: IIP, in coordination with ECA)

Recommendation 46: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should include customer service as an element in
human resources staff position descriptions and performance evaluations. (Action: IIP, in
coordination with ECA)

Position Descriptions

        Some IIP staff claim that their position descriptions are inaccurate due to lack of proper
updates following the 2011 reorganization. According to 3 FAM 2637.7, certification of position
descriptions is the responsibility of individual managers and supervisors, who have a personal
legal responsibility when signing form OF-8 for Civil Service position description, to confirm
                                       27
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

that the job is described properly and required. Misrepresentation of actual duties and
responsibilities of positions constitutes mismanagement and misuse of government resources.

Recommendation 47: The Bureau of International Information Programs should issue an
administrative notice to staff outlining supervisory responsibility for confirming that employee
position descriptions are accurate in accordance with Department of State guidelines. (Action:
IIP)

Recommendation 48: The Bureau of International Information Programs should review the
accuracy of its position descriptions and update them as needed. (Action: IIP)

Recruitment and Staffing:

       Some managers are concerned about the lengthy hiring process. For FY 2012, the IIP
average was 117 calendar days to hire an employee, excluding the security clearance step,
compared to the Department average of 84. The May 2010 Office of Management and Budget
and Office of Personnel Management guideline is 80 days, excluding the security clearance
process. Although circumstances beyond the control of an office can cause delays, the lengthy
process puts a strain on understaffed offices. In FY 2012, The ECA-IIP joint Executive Office
submitted a required corrective plan and an explanation for all hiring actions over 80 days to
DGHR’s Office of Civil Service Human Resources Management. Based on 2012 statistics, there
remains room for improvement.

         IIP managers complain about the Human Resources unit’s poor customer service and
failure to provide information about the status of vacancies and applicants. Unit staff asserts that
IIP managers often submit incomplete hiring packages, which the unit has to return to IIP
managers for revision. This delay extends the hiring process and creates friction. Some IIP
managers would like human resources staff to assist with their paperwork; however, the unit is
reluctant to provide this service because of the increased workload. IIP managers are responsible
for completing the job analysis, knowledge, skill, and ability questions; specialized experience
requirements; and category rating definitions in the hiring package. This disagreement about
roles and responsibilities in the hiring process negatively affects IIP’s compliance with the 80-
day rule. Effective coordination between IIP managers and Human Resources unit staff is
essential to resolve this impasse.

Recommendation 49: The Bureau of International Information Programs should provide
training to managers about the role, duties, and responsibilities of managers and Human
Resources unit staff in the Federal hiring process. (Action: IIP)

Recommendation 50: The Bureau of International Information Programs should hold monthly
meetings with hiring managers to discuss the status of vacancy announcements and applicants.
(Action: IIP)

Orientation

       IIP has an orientation program for Civil Service staff and interns. Based on employee
feedback, the Executive Office is revising the orientation. Sessions are held quarterly, and Civil
Service staff members are required to attend. IIP does not have an orientation program for
                                       28
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Foreign Service officers or contractors, who together make up about 50 percent of the staff. A
comprehensive orientation program would include an office sponsorship program, presentations
by senior managers, and a video.

Recommendation 51: The Bureau of International Information Programs should implement an
orientation program for Foreign Service and contract employees. (Action: IIP)

Mentoring

        IIP does not have a formal mentoring or professional development program for its entry-
level staff, a Department requirement. In domestic bureaus, a deputy assistant secretary is
responsible for assigning supervisory duties over entry-level officers, as well as ensuring they
receive proper counseling, evaluation, and training. Bureau executive offices are also important
resources for both entry-level officers and their supervisors. IIP could refer to DGHR’s template
for a successful approach to mentoring.

Recommendation 52: The Bureau of International Information Programs should implement a
mentoring program for entry-level officers and employees in personnel categories not covered by
existing counseling and evaluation programs. (Action: IIP)

Equal Employment Opportunity

        IIP has no formal registered complaints. In 2012 there was one complaint about diversity
and discrimination. As a result of the 2011 ECA inspection, ECA and IIP created a position and
hired a person to serve as the Equal Employment Opportunity (EEO) and diversity program
coordinator for both bureaus. IIP issued an EEO statement and EEO and diversity action plan for
FYs 2013–2015 during the inspection.

      Not all managers, supervisors, and employees have received the Department’s mandatory
EEO training. IIP named two EEO counselors, one of whom has received mandatory training.

        IIP does not have bulletin boards throughout the bureau with contact information for the
counselor or the steps needed to initiate EEO complaints, nor is this information posted on IIP’s
intranet or SharePoint site. No information is found notifying staff that they are free to contact
any of the Department’s EEO counselors. Providing accurate, easily accessible information
informs employees of their rights and could help prevent EEO cases from occurring.

Recommendation 53: The Bureau of International Information Programs should create an Equal
Employment Opportunity section on its SharePoint or intranet site. (Action: IIP)

Recommendation 54: The Bureau of International Programs should post on bulletin boards
throughout the bureau contact information for the Equal Employment Opportunity counselor and
the steps to initiate complaints. (Action: IIP)

Procurement

       The joint Executive Office made the OIG team aware of a number of significant issues,
including the highest number of overdue invoices in the Department. In 2012, IIP was assessed
                                       29
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

and paid $2,700 in interest penalties for late invoice payments. IIP does not always follow the
criteria found in the Prompt Payment Act, which requires Federal agencies to make payments in
a timely manner and to pay interest penalties when payments are late. Managers state that
although invoice processing remains problematic, they are taking steps to meet Prompt Payment
Act requirements.

       To address problems of workflow and accountability, in 2013 the office divided its
Support Services unit and created a separate Procurement unit. The new unit provides
procurement support to IIP staff for direct purchases and contract invoices and manages the
purchase card program and convenience checks. During the inspection, the unit cleared 90 of the
100 past-due invoices and put the final touches on a new system for tracking invoices and
procurement requests. These steps, although positive, are not sufficient to strengthen IIP’s
procurement procedures and processes.

Recommendation 55: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should analyze its procurement processes and
effect changes as needed. (Action: IIP, in coordination with ECA)

Real Property

        IIP is located in well-appointed office space near the Department, sharing a leased
building with other Department entities, including ECA. The space was configured and
furnishings provided 3 years ago. The IIP coordinator had proposed spending $1.8 million to
convert IIP space to an open floor plan. One rationale for doing so was to increase office space.
The OIG team found no space problem in IIP, although growth in ECA has been significant. The
Bureau of Administration does not routinely renovate building spaces within 5 years of
construction. Any space planning review should include an analysis of other tenants’
requirements.

Security

        IIP and ECA operate in a leased facility owned by the American Pharmacists
Association. The Department occupies five floors. The owner occupies the top floor and the rear
of the structure. Both government and nongovernment personnel share lobby elevators, a loading
dock, a parking garage entrance, and emergency stairwells. This configuration makes enforcing
security measures difficult and requires greater attention to security matters.

        One bureau security officer and one unit security officer manage IIP security. They
inspect, develop, and advise on procedures and controls for safeguarding classified and
administratively controlled information, and they enforce security regulations. They coordinate
with the Department’s Diplomatic Facilities Protection division for oversight of the building.
The bureau security officer takes a proactive approach to implementing the security program. As
a Civil Service employee, he provides needed continuity. That IIP has not had a security incident
in the past year reflects the bureau’s commitment to the security program.

       Although IIP maintains good overall security practices, the bureau does not conduct
annual tests of locks and alarms in accordance with Bureau of Diplomatic Security Physical

                                      30
                          SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Security Standards2 for Department domestic occupied space. Failure to test as required is a
potential vulnerability.

Recommendation 56: The Bureau of International Information Programs, in coordination with,
the Bureau of Educational and Cultural Affairs and the Bureau of Diplomatic Security, should
test all security alarms and locks annually for proper working order. (Action: IIP, in coordination
with ECA and DS)




2
    Part 7, Intrusion Detection Systems, p.11.
                                              31
                                  SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Management Controls
         The executive director is the management controls officer. As required, the coordinator
submitted the management controls statement of assurance to the Secretary in August 2012. The
letter reported no significant deficiencies or material weaknesses. The OIG team found no
material weaknesses but did find notable deficiencies in management controls for performance
management, contracting, and travel.

Performance Management

        IIP does not fully adhere to Department performance management guidelines. Despite
being trained and receiving notices and periodic reminders, some IIP managers do not submit
performance evaluations on time. For the 2012 rating period, managers did not complete
evaluations on time for more than 100 Civil Service and 17 Foreign Service employees. Some
Civil Service work commitments, Foreign Service work requirements, and midterm performance
reviews were either not completed or submitted late. IIP does not penalize managers who are
remiss with these obligations. Such lack of accountability is unacceptable. Managers have an
obligation to provide their employees with feedback about their performance. Late evaluations
can delay processing of within-grade increases and have a negative effect on staff morale.

Recommendation 57: The Bureau of International Information Programs should include
compliance with performance management guidelines and due dates as an element in managers’
and supervisors’ work commitments and work requirements and rate managers and supervisors
accordingly. (Action: IIP)

Recommendation 58: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should assess penalties for the late submission of performance
evaluations, midyear performance reviews, Civil Service work commitments, and Foreign
Service work requirements. (Action: IIP, in coordination with DGHR)

Contracting

        The number and complexity of IIP’s contracts exceed the bureau’s ability to manage
them properly. IIP has committed more than $42 million in FY 2013, with an additional $10
million carried over from FY 2012, to more than 100 contracts and other procurement orders.
Fifteen designated contracting officer’s representatives oversee these contracts, including the
work of 142 on-site contractors. The workload of the contracting officer’s representatives is
distributed unevenly.

       The contracting officer’s representatives work with the Bureau of Administration, Office
of Acquisitions Management, to prepare and manage IIP contracts. Over the past year, IIP
extended several contracts past their expiration date because new contract solicitations were not
prepared on time. In some cases, contractors were unable to work for a number of days until a
contract extension was completed, or they were moved onto a different but similar contract.

        IIP attempted to increase coordination on contracts by giving an employee in the Office
of Policy and Outreach a gatekeeper role, channeling communication with the Office of

                                       32
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Acquisition Management, and creating a plan to streamline the contracts. In particular, IIP
planned to renew and consolidate several labor contract mechanisms, primarily blanket purchase
agreements. This approach was unsuccessful. The designated employee had no experience with
government contracting. The bureau also lacks an efficient method of supervising contracting
officer’s representatives, again due to the absence of anyone with significant contracting
experience.

Recommendation 59: The Bureau of International Information Programs, in coordination with
the Bureau of Administration and the Bureau of Human Resources, should create a full-time
contracts coordinator position for an experienced contracting officer. (Action: IIP, in
coordination with A and DGHR)

       IIP’s contracting officer’s representatives do not fully understand their role. Some were
unaware they had been designated as a representative because the Bureau of Administration’s
Office of Acquisitions did not send designation letters as required by 14 FAH-2 H-143.2. There
was also some confusion on at least one contract between the point of contact for the contract
and the contracting officer’s representative. The oversight function that contracting officer’s
representatives provide is an essential component of proper contract management.

Recommendation 60: The Bureau of Administration, in coordination with the Bureau of
International Information Programs should confirm all contracting officer’s representative
assignments for the Bureau of International Information Programs’ active contracts and issue
new designation letters for representatives lacking this documentation in their files. (Action: A,
in coordination with IIP)

        Contracting officer’s representatives are not assigned in an effective manner. Some do
not work in the sections in which contract activity takes place and have little or no daily
interaction with the contractors they are supposed to oversee. Several contracting officer’s
representatives manage a large number of contracts; one individual manages 29 separate
contracts. This workload makes it difficult for the representative even to keep up with the
invoices, allowing little time for contractor oversight and other principal duties.

       Informal Recommendation 5: The Bureau of International Information Programs should
       identify appropriate criteria for the selection of contracting officer’s representatives and
       assign responsibility accordingly.

        Contracting officer’s representatives are unfamiliar with Department regulations on the
use and treatment of contractors. This lack of knowledge has resulted in contract staff being
allowed to telework when it is not included in the contract; office directors giving contract staff
tasks outside their scope of work; and office directors requiring that contractors work more hours
than their contract stipulates. These activities constitute unauthorized commitments and place the
government at risk.

Recommendation 61: The Bureau of International Information Programs should implement
policies regarding oversight of on-site contractors, including prior approval from the contracting
officer’s representative for equipment disbursement, telework, identification of contractors, and
overtime hours. (Action: IIP)

                                       33
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 62: The Bureau of International Information Programs should cease tasking
contractors with work outside the scope of their contracts. (Action: IIP)

        Many contracting officer’s representatives do not maintain complete working files.
Department regulation 14 Foreign Affairs Handbook (FAH)-2 H-517 a. lists 14 required
documents to be kept in all contract files. Contracting officer’s representatives easily produced
copies of invoices and signed contracts for inspectors but not copies of other required materials.
Without this documentation, contracting officer’s representatives do not have easy access to the
technical information and performance records needed to oversee their contracts adequately and
to protect the government’s interests. The lack of information also makes it difficult to ease the
transition from one contracting officer’s representative to another.

        IIP is piloting an in-house system called the “contracts management and invoice system.”
This system could provide a standardized method of maintaining required contract records, as
well as providing transparency for managers, supervisors, and bureau leadership. The current
system focuses on the invoice process. With further development and consultations with
contracting experts, IIP could modify the system to serve as a central archive capable of tracking
contract actions and performance.

Recommendation 63: The Bureau of International Information Programs should modify the
contracts management and invoice system to accommodate contracting officer’s representatives’
recordkeeping requirements as described in Department of State regulations. (Action: IIP)

Contract Workforce

        Contractors represent approximately 45 percent of total staffing (142 contractors), yet IIP
does not have a formal workforce plan to determine which job functions are more appropriate for
direct-hires and which for contractors. Many contractors perform tasks similar or equal to those
of direct hires. Contractors in some IIP offices may be performing inherently governmental
functions. IIP’s video production and digital engagement operations would not be able to
complete their assignments without contract staff. In some sections, the number of contractors
far exceeds that of direct hires, by as much as 88 percent. The current ratio is 1.3 direct hires to
each contractor.

        IIP management asserts that the high number of contractors is necessary for the support
of the bureau’s innovative work but do not address the overall cost to the bureau. IIP spends
about 60 percent of its annual budget, approximately $42 million, plus $10 million of carryover
funds, on contracting. Given the stringent budget environment, no similar carryover funds are
likely to be available in future years. The average hourly cost of a contractor is $112, which does
not include other direct costs. In contrast, the bureau can save at least 25 percent by hiring GS-14
employees to replace the contractors, who currently cost the bureau $76 an hour or more. The
bureau also relies on a number of contracting officer’s representatives to manage invoices and
communication with 10 different contract vendors.

        The Department uses workforce studies to determine the appropriate balance of
employees and contractors and the appropriate functions of each. Per 3 FAM 2164, each bureau
is responsible for managing its contractor and Federal employee resources appropriately and for
ensuring that only full-time employees perform inherently governmental functions. Department
                                       34
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

guidance in 3 FAM 2160 stipulates that Federal employees receive consideration to perform new
functions and functions performed by contractors to implement Section 736 of the Omnibus
Appropriations Act of 20093 and Office of Management and Budget guidance on Managing the
Multi-Sector Workforce, M-09-26.

Recommendation 64: The Bureau of Administration, in coordination with the Bureau of
International Information Programs, should conduct a workforce study to identify the appropriate
workforce mix of direct-hire and contract employees based on both cost considerations and
control over the bureau’s mission. (Action: A, in coordination with IIP)

Travel

        The joint Executive Office provides support to travelers and assists them with making
travel arrangements. The office lacks effective management controls. Office staff was unable to
produce a memo designating individuals with the authority to authorize travel and related
expenses, as required by 14 FAM 523.2-1. The approvals found in the IIP travel vouchers were
inconsistent and often at a lower level of authority than is prudent, especially for business class
and actual expenses. In 19 of 68 vouchers reviewed, the travel authorization was approved by the
same travel arranger who prepared the request; in 6 other vouchers, the travel arranger approved
the business class request. Some procedural deficiencies were due to mistakes or lack of
understanding about travel policies.

Recommendation 65: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should revise the travel approval chain within
the joint Executive Office to delegate travel approval authority to the appropriate officials and
submit delegations in writing to the Office of Directives Management. (Action: IIP, in
coordination with ECA)

Recommendation 66: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should provide refresher training to travel
arrangers and approvers. (Action: IIP, in coordination with ECA)

        IIP has not exercised adequate controls over official travel. The inspectors reviewed 68
travel vouchers from 2010 to 2013 and found irregularities in almost all of them. Most travel
vouchers lacked some or all documentation required by 4 FAH-3 H-465.1-3, in particular,
invoices for airline travel. In 31 travel vouchers, the approval memos for business class travel,
indirect travel, and other travel arrangements requiring special approval were missing from the
official files. Twelve authorized justifications for business class travel did not have sufficient
support and relied upon vague references to meet “business requirements.” Five cases of
apparent indirect travel did not have proper documentation, including a written authorization, a
record of travel on a cost-constructive basis, and an exception to using commercial fares as
required by 14 FAM 546. The absence of proper documentation makes it difficult to conduct
audits of travel vouchers and increases the risk of unauthorized travel.

Recommendation 67: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should require all travelers to scan necessary

3
    Pub. L. No. 111-8, Division D.
                                             35
                                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

voucher documentation into the E2 travel system, including air ticket invoices, boarding passes,
receipts, and approval memos. (Action: IIP, in coordination with ECA)

Recommendation 68: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should properly document the circumstances
supporting the authorization of indirect travel, business class travel, actual lodging, and other
exceptional travel. (Action: IIP, in coordination with ECA)

       More recently, it appears that IIP has not complied with the Under Secretary of
Management’s instructions on restricting travel to mission-critical trips, as defined in the
December 2012 telegram State 00121051. Since that time, IIP employees have taken 33 trips,
many of which do not appear to meet the new threshold for travel, expending $160,000. The OIG
team counseled management on the importance of adhering to this guidance.




                                       36
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Information Technology Management
        IIP has successfully adopted innovative technologies and cloud computing to support PD
work. However, the bureau does not have centralized IT governance and strategy to control IT
investments, manage projects, and maintain information security. As structured, the organization
does not foster collaboration, and duplication of effort is common. IIP has a dedicated and
skilled IT staff. However, personality conflicts diminish enthusiasm and reduce cooperation.

        Various IIP offices focus on content management systems, connection technologies, and
social media. One office provides public cloud-hosted, centralized Web-management service and
support to over 450 embassies, consulates, and bureau Web sites. The Office of Innovative
Engagement created a social media hub, which is a central knowledge base for PD professionals.
The Office of CO.NX/DVC produces live, interactive global Web broadcasts and conference
services to embassies and the Department. Other offices develop applications that track and
report on PD activities. In addition, the ECA-IIP Executive Office and the Bureau of Information
Resource Management provide IIP with network and computer infrastructure, including
operational support and information systems security officer duties.

Information Technology Strategy and Governance

         IIP does not have a bureauwide approach to IT governance and strategy. The Offices of
Innovative Engagement, Video Production and Acquisition, American Spaces, Applied
Technology, CO.NX/DVC, Content Management Systems, Audience Research and Evaluation,
and IT Applications all support IIP’s PD technology needs. These offices develop strategy based
on individual program needs. As a result, technical solutions are often duplicated or implemented
with no guiding strategy. Projects do not always address Federal regulations on matters such as
privacy, Section 508 compliance, and electronic information accessibility. In some instances,
managers oversee technology projects without required training. The Department’s 5 FAM 115.7
states that managers must comply with all applicable Federal laws, regulations, and mandates on
managing IT activities.

        IIP uses cloud computing to support outreach to the Department’s foreign audiences. IIP
implemented two key audience outreach programs with minimal collaboration. The Office of
Content Management Systems and the Office of CO.NX/DVC each established separate cloud-
hosted content delivery services that met their specific business needs. The Office of
CO.NX/DVC has a Web portal for video streaming and social media engagement. It is not well
integrated with the embassy and IIP Web sites that the Office of Content Management Systems
manages. Another office in IIP explores innovative methods to use social media and third-party
technology to engage audiences. Personnel working in the office do not have a bureauwide
policy on IT security, privacy, and accessibility compliance matters.

Recommendation 69: The Bureau of International Information Programs should develop a
bureauwide information technology strategic plan. (Action: IIP)

        Recognizing the need for centralized IT investments control, the bureau instituted a
project review board in 2012. The board’s primary focus is determining whether projects address


                                      37
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

IIP’s business needs. This is a step forward in addressing IT matters bureauwide. However, the
board does not review or enforce Federal regulations and information security compliance.

Recommendation 70: The Bureau of International Information Programs should update the
project review board’s charter to include governance and enforcement of Department of State
and Federal information technology management policies. (Action: IIP)

Project Management

         IIP does not have standardized project management processes and implements projects
without adequate planning and collaboration. The Department’s 5 FAM 610 series outlines
project management principles for acquiring and managing IT. The processes include well-
defined steps for delivering cost-effective, efficient, and secure solutions while encouraging
communication and information sharing and managing expectations. The 2004 OIG inspection
report identified inadequate communication and coordination in this area, and the problem
remains. Staff reports that communication and coordination have diminished since the 2011
reorganization.

        IIP invested over $3 million in a cloud-computing software service without adequate
planning, cost estimates, risk assessment, or collaboration. In 2010, IIP bought seat licenses from
a cloud-computing service provider for $154,000. In 2011, IIP spent an additional $533,000 for
the renewal and additional licenses from the same vendor. Subsequently, IIP began developing
applications using the software. In 2012, the bureau decided to expand services and increase the
number of seat licenses, spending an additional $2.5 million. The intent of the investment was to
build a one-stop shop to deliver PD content, program resources, and reporting tools to embassies
in an easy-to-use environment. However, IIP did not develop a business case, as required by 5
FAM 623, or a cost-benefit analysis, as required by 5 FAM 661, to show decision criteria for
selecting the software as an enterprise solution.

        IIP does not have a plan for sustaining the software service through its lifecycle. Until
2013, IIP did not track the cost of developing individual projects by software service. The bureau
was thus unable to provide the OIG team the amount of money it spent on projects. In addition,
IIP did not define the project scope or the users’ requirements. In 2012, IIP developed an
application for the software service without assessing users’ business requirements. Users chose
not to use the application because it did not meet their needs. During the inspection, IIP was in
the process of redesigning the application, incurring further costs.

Recommendation 71: The Bureau of International Information Programs should implement
centralized project management processes for information technology projects and programs.
(Action: IIP)

        IIP’s decision to move to cloud computing is in line with the Federal Government’s
“cloud first” policy in the 2010 “25 Point Implementation Plan to Reform Federal Information
Technology.” Federal agencies must “default to cloud-based solutions whenever a secure,
reliable, cost-effective cloud option exists.” However, in moving in that direction IIP
management did not fully vet the security requirements for hosting the Department’s data, such
as those imposed by the Federal Information Security Management Act of 2002. IIP bought the
cloud service under a generic service level agreement. The Department does not have a way to
                                       38
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

enforce regulatory compliance without incurring additional cost. The OIG team questions the
validity of IIP’s continuing to expend resources on the service without a comprehensive project
plan.

Recommendation 72: The Bureau of International Information Programs should stop new
application development using its cloud-based software service until it develops a project plan
that addresses the objectives, business case, risks, security, and annual operating costs of this
service. (Action: IIP)

Content Support Services Group

        As part of the 2011 reorganization, IIP created a Content Support Services group. Of the
four offices that make it up, two—Content Management Systems and IT Applications—conduct
IT operations. These offices have overlapping responsibilities and do not always work
collaboratively. For example, the Office of Content Management Systems is developing a cloud-
based American Spaces application to replace the versions the Office of IT Applications supports
without collaborating with that office. Similarly, both offices have personnel tasked with process
management, but these individuals have limited exposure to activities outside their offices.
Senior group management indicated that there are plans to move all of IIP’s applications to a
cloud-based system. The Office of IT Applications has limited involvement in IIP’s cloud-
implementation plan. During the inspection, some personnel expressed frustration with the
stovepiped operations and lack of clarity in their roles and responsibilities.

Recommendation 73: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should consolidate the Office of Content Management Systems
and the Office of IT Applications. (Action: IIP, in coordination with DGHR)

Mission Activity Tracker Unit

        The MAT unit is dedicated to an application of the same name that compiles embassies’
PD work. The division develops and maintains the software and trains users. In 2012 the Under
Secretary for Public Diplomacy and Public Affairs gave oversight of the tracking program to
IIP’s Office of Audience Research and Evaluation. As the business user, the office relies on the
software to analyze PD work and generate reports. The section of this report covering the Office
of Audience Research and Evaluation contains a recommendation to move the operation back to
the Office of the Under Secretary for Public Diplomacy and Public Affairs.

        Also as part of the 2011 reorganization, some of IIP’s IT functions moved to the ECA-IIP
IT office, under the rubric of shared services. However, the IT portion of the MAT application
remained in IIP. This arrangement is inefficient and leads to confusion and duplication of effort.
The OIG team believes it is more appropriate that all IT work on MAT reside in the same place.

Recommendation 74: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs and the Office of the Under Secretary for Public
Diplomacy and Public Affairs, should transfer development and maintenance support of the
mission activity tracker application to the Bureau of Educational and Cultural Affairs. (Action:
IIP, in coordination with ECA and R/PPR)

                                       39
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Information Technology Shared Services

        In 2011, the ECA-IIP Executive Office became responsible for providing shared IT
services to IIP, including unclassified and classified IT infrastructure support and dedicated
Internet networks (DIN). The services also include operational support in configuration change
management and IT security. IIP and the ECA-IIP Executive Office were expected to develop a
service level agreement to define service types and budget implications. To date there is no
agreement.

Recommendation 75: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should implement an information technology
service level agreement. (Action: IIP, in coordination with ECA)

Information Security

        IIP relies on the ECA-IIP Executive Office’s shared IT services for information systems
security support. A security officer group assists IIP in areas such as computer access control,
incident management, and security reviews of applications. However, there is no standard
process for sharing information between IIP IT operations and the Executive Office security
group. As a result, IIP uses internally developed and off-the-shelf applications as well as
externally hosted systems without ensuring that Department and Federal information security
regulations are met.

        For example, when IIP selected the cloud-software service provider, it did not consult the
systems security group. In addition, IIP implemented PD applications without certification and
accreditation as required by the Federal Information Security Management Act of 2002. These
lapses could adversely affect the integrity, confidentiality, and availability of Department
information. During the inspection, IIP and the information systems security officer group jointly
started conducting the certification and accreditation of the cloud service.

        Although the cloud service provider handles security monitoring and cyber incidents for
IIP’s externally hosted systems, the information systems security officer group is not always
informed when external cyber incidents occur. To assess the security posture of the bureau, the
group needs access to security information on all of IIP’s hosted systems. IIP notifies the
Department’s cyber incident response team as required, but the security group is not always
included.

Recommendation 76: The Bureau of International Information Programs should inventory its
information technology systems and certify and accredit the systems appropriately. (Action: IIP)

Recommendation 77: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should implement a shared information security
support standard operating procedure, including cyber-incident handling for externally hosted
systems. (Action: IIP, in coordination with ECA)

       IIP provides insufficient training on applicable Federal law for managing IT initiatives
and security risks for IIP managers. Office of Management and Budget Circular A-130 and the

                                      40
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

National Institute of Standards and Technology Special Publication 800-16 underscore the
importance of role-based training for IT managers.

Recommendation 78: The Bureau of International Information Programs should provide role-
based information assurance for information technology managers training at the Diplomatic
Security Training Center. (Action: IIP)

Dedicated Internet Networks

       IIP uses DINs to fulfill a variety of services that cannot be provided on the Department’s
unclassified network. These networks are used for software development, video production, and
Web engagement with worldwide audiences. The ECA-IIP Executive Office manages over 114
workstations and 20 servers on the 14 DINs to support this work. The Bureau of Information
Resource Management is responsible for providing network infrastructure support to the
Department. However, the increase in the number of DINs has shifted, in practice, this
responsibility to IIP, leading to duplication of effort and inefficient use of security resources.

Recommendation 79: The Bureau of Information Resource Management, in coordination with
the Bureau of International Information Programs, should conduct an information technology
network infrastructure needs analysis for public diplomacy work and implement the results.
(Action: IRM, in coordination with IIP)

Social Media and Third-Party Technology

        IIP relies heavily on social media and third-party technology to conduct PD work.
However, these tools are not reported consistently to the PD Configuration Change Control
Board. According to 5 FAM 655, configuration change control is the systematic evaluation,
coordination, approval or disapproval, and implementation of all changes to the Department’s IT
baseline. In 2012, IIP inventoried all bureau social media and third-party technology tools but
did not institute a policy.

       Informal Recommendation 6: The Bureau of International Information Programs should
       report all social media and third-party technology in use to the public diplomacy
       Configuration Change Control Board.

Internet Steering Committee

        IIP manages a Departmentwide Internet steering committee. The committee operates with
an outdated charter and limited interaction with IIP staff, although it resides in the Content
Support Services group. Two full-time employees and one contractor work on committee
matters. They convene a monthly meeting attended by representatives from throughout the
Department. According to its 2001 charter, the purpose of the committee is to develop policies
and priorities for managing Web sites and related services. As new technologies have emerged,
the committee has shifted its focus to social media policies. Because the Department is
increasing its use of emerging technologies, the steering committee can be a useful forum, but
not without updating its charter and strengthening its mandate.


                                       41
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED

Recommendation 80: The Bureau of International Information Programs, in coordination with
the Office of the Under Secretary for Management, should update the Internet steering
committee’s charter. (Action: IIP, in coordination with M/PRI)




                                    42
                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Office of the Deputy Secretary for Management and Resources, in
coordination with the Office of the Under Secretary for Public Diplomacy and Public Affairs,
should continue to seek legislative authority to designate the senior position in the Bureau of
International Information Programs as an assistant secretary. (Action: S/ES, in coordination with
R/PPR)

Recommendation 2: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Office of the Deputy Secretary for Management and Resources,
should conduct a management review of public diplomacy in the Department of State. (Action:
R/PPR, in coordination with S/ES)

Recommendation 3: The Bureau of the Comptroller and Global Financial Services should
conduct an audit of all Bureau of International Information Programs front office staff travel for
the calendar years 2011 and 2012. (Action: CGFS)

Recommendation 4: The Bureau of International Information Programs should implement a
comprehensive plan for outreach to the rest of the Department of State and key foreign affairs
agencies to maximize public diplomacy work with overseas publics. (Action: IIP)

Recommendation 5: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of Public Affairs and the Bureau of International
Information Programs, should identify any functional overlap between those bureaus and assign
responsibility appropriately. (Action: R/PPR, in coordination with PA and IIP)

Recommendation 6: The Bureau of International Information Programs should change the
editorial board’s role, reserving for it only high-level programmatic decisions and investing
middle managers with the authority to make day-to-day programmatic decisions. (Action: IIP)

Recommendation 7: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should change reporting requirements so that all deputy
coordinators report directly to the coordinator. (Action: IIP, in coordination with DGHR)

Recommendation 8: The Bureau of International Information Programs should submit a
request to the Bureau of Human Resources to reclassify appropriately the leadership position in
the Platform Management group. (Action: IIP, in coordination with DGHR)

Recommendation 9: The Bureau of International Information Programs should move the
development and maintenance of partnerships with governmental and private organizations to
the Office of Policy and Outreach. (Action: IIP)

Recommendation 10: The Bureau of International Information Programs should implement an
annual publications plan that includes a production schedule and that takes staff resources into
account. (Action: IIP)

Recommendation 11: The Bureau of International Information Programs should conduct an
assessment of embassies’ needs for written products with a focus on influencing diverse foreign
audiences. (Action: IIP)
                                              43
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 12: The Bureau of International Information Programs should formalize the
production of policy-support articles, clarifying the supervisory relationships in the Office of
Written Content. (Action: IIP)

Recommendation 13: The Bureau of International Information Programs should develop an
annual plan, including a production schedule, that sets achievable targets and maximizes the
number and quality of video products the bureau develops for embassies. (Action: IIP)

Recommendation 14: The Bureau of International Information Programs should unite all
components of the speakers program, including recruitment and logistics, in the Office of
Regional Coordination. (Action: IIP)

Recommendation 15: The Bureau of International Information Programs should require
evaluation reports for all speaker programs. (Action: IIP)

Recommendation 16: The Bureau of International Information Programs should use only
publicly available travel fares when booking travel for individual grantees. (Action: IIP)

Recommendation 17: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should implement procedures to include
oversight and proper documentation of all grants requirements for individual travel from the pre-
award stage through closeout. (Action: IIP, in coordination with ECA)

Recommendation 18: The Bureau of International Information Programs should move judicial
liaison duties to the Office of Policy and Outreach. (Action: IIP)

Recommendation 19: The Bureau of International Information Programs should move the
package runner function to the Regional Coordination and American Spaces group and redefine
staff responsibilities. (Action: IIP)

Recommendation 20: The Bureau of International Information Programs should remove
contract management and oversight from the senior advisor position in the front office. (Action:
IIP)

Recommendation 21: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of International Information Programs, should assume
management of the mission activity tracker. (Action: R/PPR, in coordination with IIP)

Recommendation 22: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of International Information Programs, should assume
responsibility for producing the public diplomacy impact report. (Action: R/PPR, in coordination
with IIP)

Recommendation 23: The Bureau of International Information Programs should discontinue
the audience research kiosk project. (Action: IIP )

Recommendation 24: The Bureau of International Information Programs, in coordination with
the Office of the Under Secretary for Public Diplomacy and Public Affairs and the Bureau of
Educational and Cultural Affairs, should move all information technology management

                                      44
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

responsibilities from the Office of Audience Research and Evaluation to the Bureau of
Educational and Cultural Affairs. (Action: IIP, in coordination with R/PPR and ECA)

Recommendation 25: The Bureau of Human Resources, in coordination with the Bureau of
International Information Programs, should conduct a desk audit of the senior position in the
Office of Audience Research and Evaluation. (Action: DGHR, in coordination with IIP)

Recommendation 26: The Bureau of International Information Programs, in coordination with
the Bureau of Administration, should implement a memorandum of understanding governing
their interactions on certifying translators. (Action: IIP, in coordination with A)

Recommendation 27: The Bureau of International Information Programs should modify the
existing contract for translation services or solicit a new contract for these services. (Action: IIP)

Recommendation 28: The Bureau of International Information Programs should move the
Office of Translation Services to the Content Development group. (Action: IIP)

Recommendation 29: The Bureau of International Information Programs should implement a
strategic plan for American Spaces that addresses accountability for the increased budget.
(Action: IIP)

Recommendation 30: The Bureau of Human Resources, in coordination with the Bureau of
International Information Programs, should assess staffing needs and create a succession
management plan for the information resource officer corps. (Action: DGHR, in coordination
with IIP)

Recommendation 31: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should assign a permanent full-time employee with experience
in resource management and budget planning to a vacant full-time employee position to manage
and track the American Spaces budget. (Action: IIP, in coordination with DGHR)

Recommendation 32: The Bureau of International Information Programs should implement a
plan for the eReader learning initiative that includes measurable goals. (Action: IIP)

Recommendation 33: The Bureau of International Information Programs should create a
property management plan for bureau-supplied eReader devices currently in embassies. (Action:
IIP)

Recommendation 34: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should assign a permanent director for the Office of Regional
Coordination. (Action: IIP, in coordination with DGHR)

Recommendation 35: The Bureau of International Information Programs should clarify the
respective scope, roles, and responsibilities of the Office of Innovative Engagement and the
Office of Web Engagement. (Action: IIP)

Recommendation 36: The Bureau of International Information Programs should direct its
digital advertising to specific public diplomacy goals in keeping with Department of State
guidance. (Action: IIP)

                                        45
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 37: The Bureau of International Information Programs should adopt a social
media strategy that clarifies the primary goals and public diplomacy priorities of its social media
sites. (Action: IIP)

Recommendation 38: The Office of the Under Secretary for Public Diplomacy and Public
Affairs, in coordination with the Bureau of International Information Programs and the Bureau of
Public Affairs, should establish a written delineation of the roles, audiences, and parameters for
social media in the two bureaus. (Action: R/PPR, in coordination with IIP and PA)

Recommendation 39: The Bureau of International Information Programs, in coordination with
the Bureau of Public Affairs, should establish a regular meeting among working-level social
media staff members. (Action: IIP, in coordination with PA)

Recommendation 40: The Bureau of International Information Programs, in coordination with
the Bureau of Near Eastern Affairs, should merge Vision of America social media properties into
USAdarFarsi social media properties under Bureau of Near Eastern Affairs leadership. (Action:
IIP, in coordination with NEA)

Recommendation 41: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
International Information Programs, should establish regular meetings between the staffs of the
two bureaus working on outreach to Iran. (Action: NEA, in coordination with IIP)

Recommendation 42: The Bureau of Administration, in coordination with the Bureau of
International Information Programs, should deobligate Bureau of International Information
Programs accounts with expired funding, completed performance, and small obligated amounts.
(Action: A, in coordination with IIP)

Recommendation 43: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should revise its human resources standard
management policies and procedures and reorganize and categorize them on its intranet Web site
to improve user information access. (Action: IIP, in coordination with ECA)

Recommendation 44: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should determine what type of personnel
questions and issues should be sent to the human resources officer for action and post them on
the intranet site. (Action: IIP, in coordination with ECA)

Recommendation 45: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should provide its human resources staff with
customer service training. (Action: IIP, in coordination with ECA)

Recommendation 46: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should include customer service as an element in
human resources staff position descriptions and performance evaluations. (Action: IIP, in
coordination with ECA)

Recommendation 47: The Bureau of International Information Programs should issue an
administrative notice to staff outlining supervisory responsibility for confirming that employee


                                       46
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

position descriptions are accurate in accordance with Department of State guidelines. (Action:
IIP)

Recommendation 48: The Bureau of International Information Programs should review the
accuracy of its position descriptions and update them as needed. (Action: IIP)

Recommendation 49: The Bureau of International Information Programs should provide
training to managers about the role, duties, and responsibilities of managers and Human
Resources unit staff in the Federal hiring process. (Action: IIP)

Recommendation 50: The Bureau of International Information Programs should hold monthly
meetings with hiring managers to discuss the status of vacancy announcements and applicants.
(Action: IIP)

Recommendation 51: The Bureau of International Information Programs should implement an
orientation program for Foreign Service and contract employees. (Action: IIP)

Recommendation 52: The Bureau of International Information Programs should implement a
mentoring program for entry-level officers and employees in personnel categories not covered by
existing counseling and evaluation programs. (Action: IIP)

Recommendation 53: The Bureau of International Information Programs should create an
Equal Employment Opportunity section on its SharePoint or intranet site. (Action: IIP)

Recommendation 54: The Bureau of International Programs should post on bulletin boards
throughout the bureau contact information for the Equal Employment Opportunity counselor and
the steps to initiate complaints. (Action: IIP)

Recommendation 55: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should analyze its procurement processes and
effect changes as needed. (Action: IIP, in coordination with ECA)

Recommendation 56: The Bureau of International Information Programs, in coordination
with, the Bureau of Educational and Cultural Affairs and the Bureau of Diplomatic Security,
should test all security alarms and locks annually for proper working order. (Action: IIP, in
coordination with ECA and DS)

Recommendation 57: The Bureau of International Information Programs should include
compliance with performance management guidelines and due dates as an element in managers’
and supervisors’ work commitments and work requirements and rate managers and supervisors
accordingly. (Action: IIP)

Recommendation 58: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should assess penalties for the late submission of performance
evaluations, midyear performance reviews, Civil Service work commitments, and Foreign
Service work requirements. (Action: IIP, in coordination with DGHR)

Recommendation 59: The Bureau of International Information Programs, in coordination with
the Bureau of Administration and the Bureau of Human Resources, should create a full-time

                                      47
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

contracts coordinator position for an experienced contracting officer. (Action: IIP, in
coordination with A and DGHR)

Recommendation 60: The Bureau of Administration, in coordination with the Bureau of
International Information Programs should confirm all contracting officer’s representative
assignments for the Bureau of International Information Programs’ active contracts and issue
new designation letters for representatives lacking this documentation in their files. (Action: A,
in coordination with IIP)

Recommendation 61: The Bureau of International Information Programs should implement
policies regarding oversight of on-site contractors, including prior approval from the contracting
officer’s representative for equipment disbursement, telework, identification of contractors, and
overtime hours. (Action: IIP)

Recommendation 62: The Bureau of International Information Programs should cease tasking
contractors with work outside the scope of their contracts. (Action: IIP)

Recommendation 63: The Bureau of International Information Programs should modify the
contracts management and invoice system to accommodate contracting officer’s representatives’
recordkeeping requirements as described in Department of State regulations. (Action: IIP)

Recommendation 64: The Bureau of Administration, in coordination with the Bureau of
International Information Programs, should conduct a workforce study to identify the appropriate
workforce mix of direct-hire and contract employees based on both cost considerations and
control over the bureau’s mission. (Action: A, in coordination with IIP)

Recommendation 65: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should revise the travel approval chain within
the joint Executive Office to delegate travel approval authority to the appropriate officials and
submit delegations in writing to the Office of Directives Management. (Action: IIP, in
coordination with ECA)

Recommendation 66: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should provide refresher training to travel
arrangers and approvers. (Action: IIP, in coordination with ECA)

Recommendation 67: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should require all travelers to scan necessary
voucher documentation into the E2 travel system, including air ticket invoices, boarding passes,
receipts, and approval memos. (Action: IIP, in coordination with ECA)

Recommendation 68: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should properly document the circumstances
supporting the authorization of indirect travel, business class travel, actual lodging, and other
exceptional travel. (Action: IIP, in coordination with ECA)

Recommendation 69: The Bureau of International Information Programs should develop a
bureauwide information technology strategic plan. (Action: IIP)


                                       48
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 70: The Bureau of International Information Programs should update the
project review board’s charter to include governance and enforcement of Department of State
and Federal information technology management policies. (Action: IIP)

Recommendation 71: The Bureau of International Information Programs should implement
centralized project management processes for information technology projects and programs.
(Action: IIP)

Recommendation 72: The Bureau of International Information Programs should stop new
application development using its cloud-based software service until it develops a project plan
that addresses the objectives, business case, risks, security, and annual operating costs of this
service. (Action: IIP)

Recommendation 73: The Bureau of International Information Programs, in coordination with
the Bureau of Human Resources, should consolidate the Office of Content Management Systems
and the Office of IT Applications. (Action: IIP, in coordination with DGHR)

Recommendation 74: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs and the Office of the Under Secretary for Public
Diplomacy and Public Affairs, should transfer development and maintenance support of the
mission activity tracker application to the Bureau of Educational and Cultural Affairs. (Action:
IIP, in coordination with ECA and R/PPR)

Recommendation 75: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should implement an information technology
service level agreement. (Action: IIP, in coordination with ECA)

Recommendation 76: The Bureau of International Information Programs should inventory its
information technology systems and certify and accredit the systems appropriately. (Action: IIP)

Recommendation 77: The Bureau of International Information Programs, in coordination with
the Bureau of Educational and Cultural Affairs, should implement a shared information security
support standard operating procedure, including cyber-incident handling for externally hosted
systems. (Action: IIP, in coordination with ECA)

Recommendation 78: The Bureau of International Information Programs should provide role-
based information assurance for information technology managers training at the Diplomatic
Security Training Center. (Action: IIP)

Recommendation 79: The Bureau of Information Resource Management, in coordination with
the Bureau of International Information Programs, should conduct an information technology
network infrastructure needs analysis for public diplomacy work and implement the results.
(Action: IRM, in coordination with IIP)

Recommendation 80: The Bureau of International Information Programs, in coordination with
the Office of the Under Secretary for Management, should update the Internet steering
committee’s charter. (Action: IIP, in coordination with M/PRI)



                                       49
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Bureau of International Information Programs should
consolidate its weekly staff meetings.

Informal Recommendation 2: The Bureau of International Information Programs should
coordinate with the Bureau of Intelligence and Research to formalize a process for sharing
research results.

Informal Recommendation 3: The Bureau of International Information Programs should make
its social media feed items accessible to embassies online before sending out the daily social
media feeds.

Informal Recommendation 4: The Bureau of International Information Programs should
establish guidelines setting priorities and clarifying the circumstances under which the Office of
CO.NX/DVC will support requests that do not support public diplomacy goals.

Informal Recommendation 5: The Bureau of International Information Programs should
identify appropriate criteria for the selection of contracting officer’s representatives and assign
responsibility accordingly.

Informal Recommendation 6: The Bureau of International Information Programs should report
all social media and third-party technology in use to the public diplomacy Configuration Change
Control Board.




                                        50
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                   Name     Arrival Date
Coordinator*                                             Dawn L. McCall             7/10
Principal Deputy Coordinator                            Maureen Cormack             7/11
Deputy Coordinator for Content Development                   Nick Namba             7/11
Deputy Coordinator for Regional Coordination and
  American Spaces                                       Courtney Austrian           6/12
Managing Director, Platform Management                Rebecca Winchester            7/11
Managing Director, Content Support Services              Martha Chaconas            7/12
Executive Director ECA-IIP-EX                         Paula Goode, Acting           3/13
*The Coordinator resigned effective April 12, 2013.




                                      51
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
Department       U.S. Department of State

DGHR             Bureau of Human Resources

DIN              Dedicated Internet network

ECA              Bureau of Educational and Cultural Affairs

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

IIP              Bureau of International Information Programs

IRO              Information resource officer

IT               Information technology

MAT              Mission activity tracker

NEA              Bureau of Near Eastern Affairs

OBO              Bureau of Overseas Buildings Operations

PA               Bureau of Public Affairs

PD               Public diplomacy




                            52
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
